<html>
<title> - FIRST RESPONDERS' PROGRAM IN FISCAL YEAR 2003 BUDGET</title>
<body><pre>[Senate Hearing 107-957]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-957
 
                      FIRST RESPONDERS' PROGRAM IN
                        FISCAL YEAR 2003 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

THE BUDGET FOR THE PROGRAMS OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY 
     TO PREPARE FIRST RESPONDERS TO NATURAL AND MAN-MADE DISASTERS

                               __________

                             MARCH 12, 2002

                               __________


  Printed for the use of the Committee on Environment and Public Works







                        U.S. GOVERNMENT PRINTING OFFICE

83-688                        WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             second session
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado

                Ken Connolly, Democratic Staff Director
                Dave Conover, Republican Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 12, 2002
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    33
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    15
Corzine, Hon. Jon S. U.S. Senator from the State of New Jersey...    18
Jeffords, Hon. James, U.S. Senator from the State of Vermont.....     1
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....    13
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     8
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    16
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........     3

                               WITNESSES

Allabaugh, Hon. Joseph, Director, Federal Emergency Management 
  Agency.........................................................     5
    Prepared statement...........................................    34
    Responses to additional questions from:
        Senator Clinton..........................................    46
        Senator Jeffords.........................................    39
        Senator Smith............................................    42
        Senator Voinovich........................................    43
        Senator Warner...........................................    49
Fogg, Woodbury P., National Emergency Management Association.....    23
    Prepared statement...........................................    49
    Report, White Paper on Domestic Preparedness................. 53-55
    Resolution, Terrorism Committee Resolution on States' 
      Principles for a National Domestic Preparedness Strategy... 56-57
O'Neil, Michael, chief, South Burlington Fire Department, 
  Burlington, VT.................................................    27
    Prepared statement...........................................    60
Wison, Edward, chief, City of Portland Fire Department, Portland, 
  OR.............................................................    25
    Prepared statement...........................................    58
    Responses to additional questions from Senator Clinton.......    59
Zirkle, Kenneth, E., president, University of Findlay, Findlay, 
  OH.............................................................    29
    Article, National Center of Excellence for Environmental 
      Management.................................................    63
    Prepared statement...........................................    62


                     FIRST RESPONDERS' PROGRAM IN 
                        FISCAL YEAR 2003 BUDGET

                              ----------                              


                        TUESDAY, MARCH 12, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Senate Dirksen Building, Hon. James Jeffords (chairman of 
the committee) presiding.
    Present: Senators Jeffords, Clinton, Corzine, Smith, 
Voinovich, Warner, and Wyden.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. The committee will come to order.
    I consider this to be an important hearing, but also one 
that brings back so many memories in different directions, both 
terrible events we have been through and all. But I would like 
to start off by just talking a little bit about my personal 
experience.
    I am from a very small town called Shrewsbury. When we 
first got to the town and moved in, I wanted to volunteer for 
everything, so I volunteered for the fire department. That 
proved to be very advantageous because I lived on top of the 
hill and the fire engine was at the bottom of the hill, and I 
had a big barn. So they suggested, well, we have a 1936 pumper 
here that is a little rusty, but it still works pretty well, 
but the problem is, it is at the bottom of the hill. So by the 
time it gets to the top of the hill, it is all done. So I said, 
OK, I will be fire engine station No. 2.
    So one evening, we got word that down at the bottom of the 
hill a long ways a way a fire had started, so we were asked to 
go down there. So I got in my old Ford, 1936 Ford with 
mechanical brakes--that will give you part of the story away--
so we came roaring down. My neighbor was ahead of me in a 
little Volkswagen, and fortunately he pulled off quickly 
because I had lost the brakes by the time I got to the bottom. 
So I went right by the fire, and finally got it stopped. Then 
damned if I didn't run out of gas. So you had to get out, take 
the seat off, pull the cork out, and then pour out from a 5-
gallon can into the tank. Well, while I was doing that--this is 
where my danger came--a guy with a big cigar leaned over and 
said, ``Can I help?'' I said, ``Yes, get the hell out of 
here.''
    [Laughter.]
    Senator Jeffords. But we ended up being heroes because the 
other engine ran out of water just as we got ours revved up 
again, and we got it banked up and we were the ones that put 
the fire out. So I consider that in the end, it was a great 
victory. But it just gives you an idea when you live in small 
towns--you all have had experiences--but there are some hairy 
moments, and just driving a 1936 Ford down a steep hill was 
enough of one.
    But anyway, I want to welcome everyone. I would especially 
like to welcome Director Allbaugh and all the other witnesses, 
including Chief Mike O'Neil of the South Burlington Fire 
Department.
    We are here today to discuss the President's new First 
Responder Initiative. Yesterday, this Nation commemorated an 
unfortunate milestone--6 months since the tragic attacks on 
September 11. Since that time, much has been said and written 
about the terrible events of the day. I vividly remember my own 
visits to the Pentagon and the World Trade Center just days 
after the attacks, and I remember the sights, the sounds, the 
smells and most of all the relentless and tireless efforts of 
the first responders risking their lives in a heroic attempt to 
save others. But these men and women were heroes long before 
September 11. These men and women were heroes the day they 
became firefighters and police officers. As a former volunteer 
in my own small community, I feel a great sense of pride when I 
listen to the stories of the brave men and women--the 
firefighters and the police officers and other emergency 
personnel who on a daily basis answer the call to serve.
    Since September 11, I have thought every day about the 
causes of the horrible tragedy and what we as a Nation can do 
to better prepare ourselves against future terrorist attacks. 
Time is a great healer, and the passage of time has allowed the 
Nation to begin to feel normal again. For me, this healing 
process has brought a renewed commitment to make sure the 
Nation is prepared for and can respond effectively to any 
future acts of terrorism.
    However, we cannot allow the passage of time to dull our 
recollection of what we saw and felt on that day of September 
11. The Federal Government under the careful orchestration of 
FEMA mobilized like never before to respond September 11. But 
as Oliver Wendell Holmes once said, ``I find the great thing in 
the world is not so much where we stand, as the direction we 
are moving.'' I believe the First Responder Initiative is an 
important step in the right direction, moving us toward a 
strong national preparedness network--a network composed of 
well-prepared, well-trained, and well-equipped first 
responders.
    As we move today away from September 11, we must not forget 
the continuing need. Currently in the United States, there are 
over 1 million firefighters and 600,000 law enforcement 
officers and 155,000 trained EMTs within this community. 
Because of their responsibilities and capabilities, they vary 
widely, and many areas have little or no response capability.
    This initiative aims at correcting these deficiencies by 
helping States prepare for and respond to terrorist attacks. 
But the Federal Government and the States must be partners in 
this process. I hope, as all Americans hope, that we will never 
again have to respond to another act of terrorism, but we live 
in a world where we must be prepared. I call on FEMA and the 
Office of Homeland Security to carefully craft this initiative. 
State and Federal Government must work together to ensure that 
our people on the front lines, our first responders, receive 
all they need to answer the call.
    I look forward to your testimony and am so pleased to have 
you here as our first witness. Please proceed, Mr. Allbaugh.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont
    Good morning. I'd like to begin by thanking all of our witnesses 
for participating in today's hearing. I am really looking forward to 
listening to your testimonies.
    Today's hearing stems from my long-term interest in helping our 
cities and towns become economically vibrant and culturally cohesive 
communities. One of the best ways to support these efforts is to 
provide our communities with growth planning and redevelopment tools.
    I have been involved in ``smart'' growth efforts since the 1960's 
when I served as a Vermont State Senator and Attorney General of 
Vermont.
    I am proud to have had a major role in drafting Vermont's 
development review plans that became Act 250, the first and most 
comprehensive State level growth management policy in the United 
States.
    I have continued my activities with regard to ``smart'' growth 
during my tenure in both the House and Senate. In January 1999, I 
established the Senate Smart Growth Task Force, a bipartisan, multi-
regional caucus. Twenty-three Senators currently participate in the 
Task Force. The overall goal of the Task Force is to determine how the 
Federal Government can help States and localities address their own 
growth management issues.
    Growth decisions should be made, ultimately, at the local level. 
However, the Federal Government needs to continue assessing Federal 
policies that may interfere with local growth management.
    For example, the National Interstate System has had a tremendous 
impact on local development patterns. Over the last 10 years, we have 
brought substantial attention to this issue through the transportation 
planning process. We will address this issue in our upcoming hearing on 
Transportation and Smart Growth.
    The Federal Government also needs to provide communities with the 
necessary tools and resources to achieve local growth objectives. I 
believe that the two bills before us today help us make great strides 
in this direction.
    With the recent enactment of the Small Business Liability Relief 
and Brownfields Revitalization Act, we have made great progress in 
addressing local liability and financial concerns.
    Through the Brownfield Site Redevelopment Assistance Act, we have 
an opportunity to complement these efforts. S. 1079 will address that 
next step after assessment and cleanup; the step in which communities 
actually begin redeveloping the sites. The economic benefits are 
incredible. The U.S. Conference of Mayors estimates that brownfields 
redevelopment could generate more than 550,000 additional jobs and up 
to $2.4 billion in new tax revenues for cities.
    The other bill we will discuss today is the Community Character 
Act. This bill presents another important opportunity to provide 
communities that wish to plan proactively with the resources to do so. 
This is especially important for my home State of Vermont. Rural 
communities frequently grapple with a lack of planning resources and 
expertise. I recently learned from our distinguished Vermont witness 
that only 39 percent of rural governments do comprehensive planning 
versus more than 70 percent of metropolitan governments. S. 975 provide 
the necessary resources to even out that ratio.
    Finally, I am in the process of working on another ``smart'' growth 
legislative proposal. It will substantially improve decisionmaking 
capacity for local planners. The legislation will provide communities 
with the resources to access visualization, modeling, and other 
planning tools.
    I look forward to working with my EPW colleagues on this 
legislation.

    Senator Jeffords. Oh, yes. Sorry about that.

  OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM THE 
                        STATE OF OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. Mr. 
Chairman, I want to commend you for holding this very important 
hearing. Let me say I also share your views about Director 
Allbaugh. He has been working with me on a number of issues and 
been extremely responsive, and we are very pleased that he is 
here. I also want to take this opportunity to welcome Mr. Ed 
Wilson, who is chief of the city of Portland's Fire Department 
and serves with great valor at home in my State.
    I think it is obvious, Mr. Chairman, that there is a new 
appreciation for the bravery of this country's first 
responders. Our fire, police and emergency personnel came 
through so tremendously on September 11 and I think for 
millions of Americans there is no much more awareness about the 
crucial role that the first responders play in saving lives. 
But first responders cannot help us win this war against 
terrorism with bravery alone. They also need resources, the 
right tools and the right training. That is where the First 
Responder Initiative comes in. I am very pleased to have the 
opportunity to work with the Bush administration on a 
bipartisan basis to ensure that the first responders have 
actual resources, and not just promises and slogans.
    It is obvious that in working on this effort, there are 
going to be some difficult choices. It is not possible to have 
all the resources to buy everything that you would want in an 
ideal world. But I do believe that the Congress, working with 
the Administration, can make sure that the dollars available 
buy the biggest possible improvements in preparedness and 
safety.
    I also want to say, Mr. Chairman, I think it is critical 
for the Congress in addition to making sure that there are 
adequate resources for the first responders, fire, police and 
emergency personnel who work for the Government, to have the 
opportunity to have their work supplemented with the skills and 
talents of thousands of patriotic Americans with extraordinary 
scientific and technological ability. Toward that end, I will 
shortly be introducing legislation that will give us a chance 
to mobilize those leaders with science and technological 
training. At a minimum, we ought to make it possible in every 
community in this country to have a data base of expertise--
those who have expertise available in health and scientific 
areas. It ought to be possible to have a data base where 
communities can turn to get help from the private sector.
    We have a Strategic Petroleum Reserve in this country. I 
think we ought to have a Strategic Technology Reserve where it 
would be possible for communities to call on private companies, 
many of them have contacted me in this regard, to get help, 
both with technology and with personnel.
    Finally, I think we ought to have a test bed so that we can 
analyze the thousands and thousands of products that are coming 
now to government at all levels, that have great potential for 
helping us win this war against terrorism, but for which there 
really is not any systematic way to evaluate them.
    So I think that the First Responder Initiative is an 
important one. It allows the Government to get on the side of 
the first responders, and it is not going to count in this 
country unless you have additional resources for the first 
responders. But I think we need to go further than that, and in 
addition to these government efforts, I think there should be a 
new effort to mobilize those in the private sector with science 
and technological training. Mr. Allbaugh has been very 
forthright in sharing his ideas and suggestions in this area, 
and like you, Mr. Chairman, I welcome him today.
    Senator Jeffords. Director Allbaugh, please proceed.

STATEMENT OF HON. JOSEPH ALLBAUGH, DIRECTOR, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Allbaugh. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today. Senator Wyden, good to see you 
again.
    It is an honor to come before this committee and talk about 
President Bush's First Responder Initiative. I would like to 
take a few minutes to describe the proposed program and its 
value to America's national preparedness in the 21st century. 
But I think that before I do that, it is important for the 
committee to hear about some of the lessons learned from 
September 11 that illustrate the need for firefighters, police, 
and emergency medical personnel to have a single defined 
coordinating authority and point of contact within the Federal 
Government.
    One of the lessons of September 11 was that lack of a 
single incident command system for the entire country. On that 
day, New York, Pennsylvania and northern Virginia all activated 
unrelated operations, hindering FEMA's efforts to gather and 
disseminate important information. The same kind of incomplete 
coordination is the root cause of several other lessons we 
learned that day. For instance, onsite commanders at the World 
Trade Center in New York City had no choice but to turn away 
hundreds of self-deployed firefighters from around the country 
because they had no way of knowing what training or experience 
levels those individuals, those selfless volunteers had at the 
time.
    Many first responders deployed to New York from other 
jurisdictions often found their equipment was incompatible with 
that used by the city of New York Police and Fire Departments. 
Items such as breathing apparatus and personal protective gear 
are not standardized around the country or even city to city 
within a State. So much of the equipment made available on the 
scene that day could not be used.
    This problem of limited interoperability is especially 
frustrating in the area of communications. While at Ground Zero 
for several days, I personally witnessed first responders 
passing notes, handwritten notes, back and forth to one another 
as the most reliable, effective means of communication. On 
September 11 and in other emergency situations, seamless 
communication interoperability would have saved lives.
    Addressing this overall problem of compatibility is one of 
the primary up-sides of mutual aid. More robust and meaningful 
mutual aid agreements will bring the first responder community 
closer together on a lot of these issues. I am concerned at 
this time that only 6 of FEMA's 28 urban search and rescue 
teams are trained to respond to a weapons of mass destruction 
scenario. In hindsight, none of these lessons and concerns are 
new or surprising, but the seismic change in the world we all 
witnessed on that day has transformed these solutions to these 
problems from marginal action items on some bureaucratic to-do 
list, to the moral responsibilities of a challenged Nation.
    The first step toward finally solving these problems head-
on is President Bush's First Responder Initiative we are here 
to discuss today. The First Responder Initiative includes $3.5 
billion in the 2003 budget request, most of which would be 
distributed to States and local jurisdictions to give them 
critically needed funds to, No. 1, purchase equipment; No. 2, 
train and exercise personnel; and No. 3, plan to respond to a 
terrorist incident in their community.
    The grants will be administered by our Office of National 
Preparedness. To address some of the lessons learned, the first 
responder community will coordinate with the Office of National 
Preparedness, which will establish national standards for 
interoperability and compatibility in a number of areas, 
including training, equipment, mutual aid and exercising.
    The grants, coupled with the standards, will balance the 
dual needs for both flexibility and accountability at the State 
and local level. At FEMA, ONP will be working within the 
Federal Government and with States to coordinate every 
terrorism-related first responder program so that the entire 
national response system will be singing off the same page.
    The lessons we learned on September 11 accentuate the need 
for this single point of contact approach. The current model of 
Federal terrorism preparedness of scattered unrelated programs 
without a single coordinating entity cultivates the 
inadequacies that were clearly visible on September 11. With 
its longstanding relationships within the first responder 
community, and successful record of grant distributions, FEMA 
is the perfect home for this initiative. I look forward to 
working with you and other members of the committee to make 
President Bush's vision of a seamless national response system 
a reality.
    I thank you for inviting me today. I have submitted written 
testimony for the committee's acceptance, and I would be happy 
to entertain any questions.
    Senator Jeffords. Mr. Allbaugh, it is my understanding that 
FEMA will distribute first responder funds to the States by 
formula, and that population will be a major factor in this 
formula. I represent, of course, a small, less-populous State. 
Can you explain what factors other than population you will 
consider in distributing funds? Also, can you discuss how the 
States will assess local needs and what percentage of the funds 
you expect to go to the local governments?
    Mr. Allbaugh. One of the things that we did last fall right 
before Thanksgiving was to conduct a capability readiness study 
of all 50 States and the territories. It is extremely important 
that what we learned in that 15-day period be a cornerstone of 
this formula, not only based on their own current capability, 
but also based on population.
    Some States have heard the call years ago, and taken the 
responsibility themselves. Other States have not. Even within 
States, some communities have stepped up to the plate and 
accepted that responsibility of preparing, training, 
exercising, and funding properly their first responders.
    So I think working with the States and local communities, 
we will devise a system that will be fair to all. Given the 
fact that I believe that this $3.5 billion is just the first 
installment of many years, I believe it will take many years to 
correct this problem, but we will be taking the first step in 
the right direction.
    Senator Jeffords. I was at the Pentagon site closely after 
the beginning, and talked with the firefighters there. There 
were responders from I think Nebraska and all over the place.
    Mr. Allbaugh. Right.
    Senator Jeffords. One of the problems they had were the 
inability to communicate with each other. That is sort of a 
massive-type problem in the sense of any kind of coordination 
or what we do to make sure there is some common frequency. What 
is being done in that regard?
    Mr. Allbaugh. Well, we have an interagency committee that 
is studying the communication problems. I happen to believe 
that communication is the single most vital problem that we 
face in this country when it comes to responding to incidents. 
We are about the business of savings lives and protecting 
property, and if we cannot communicate, we are putting those 
lives further at risk. Ron Miller, our IT expert, is working 
with many other Agencies inside the Government on this. There 
are a lot of private firms outside the Federal Government that 
believe they have the single answer. There needs to be a 
clearinghouse for this new technology. I am anxious to get this 
ball rolling.
    Senator Jeffords. Yes, there is so much potential, but I 
can understand also that with so many different communities and 
all, it is going to be not an easy situation.
    Mr. Allbaugh. Right. I think, Mr. Chairman, our biggest 
challenge for us is to at FEMA set national standards. We do 
not want to be in the business of telling a community or a 
State, you need to by X equipment or Y equipment. But we need 
to set the standards, design the specifications, and then allow 
the States and the communities to live up to those standards.
    Senator Jeffords. In your testimony, you briefly address 
the Assistant Firefighter Grant Program. You said that the 
program remains an important element in supporting the most 
pressing needs of the at-risk community. I know this is 
especially true in small States like Vermont. I understand the 
President's budget proposes to administer this program through 
the Office of National Preparedness. Will this new First 
Responder Initiative phase-out funding for this most important 
program?
    Mr. Allbaugh. I believe very strongly that the two programs 
need to be administered separately. They will be very 
compatible. The Fire Grant Program that we started last year 
with the blessing of Congress, funded at $100 million in fiscal 
year 2001. We have current funding of $360 million. Whatever 
Congress gives us, I assure you we can get out the door. That 
is for basic firefighting needs. There were no set-asides in 
that program--a truly competitive program that was administered 
fairly.
    The Terrorism Grants with the First Responder Program is a 
much broader program, much bigger program, more robust in a lot 
of areas. It does not address basic firefighting needs that the 
33,000 departments have nationwide. However, I believe both 
programs together complement one another greatly.
    Senator Jeffords. Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Mr. Chairman, I apologize for being 
late. I had a bill-signing at the White House, as a matter of 
fact, on a piece of legislation that was voted out of this 
committee, the Appalachian Regional Commissions.
    I would like to welcome Joe Allbaugh here.
    Mr. Allbaugh. Thank you.
    Senator Voinovich. I would like my statement that I was 
going to deliver to be inserted in the record.
    Senator Jeffords. It will be.
    Senator Voinovich. Mr. Allbaugh, I sincerely believe that 
your Agency is the right one to handle this initiative. I am 
very concerned that when the money is allocated that it is 
actually used for the things that you want it to, and I am glad 
that you are going to be writing the specifications. But I have 
been a mayor and a Governor, and so often a program comes along 
and it is an opportunity maybe to get some stuff that you were 
not able to get locally because you did not have the money for 
it. I think we ought to make sure that the money that is spent 
really goes for things that are going to make these responders 
much more able to deal with a terrorist attack. So I think that 
the specs are important. I did not have a chance to hear your 
testimony. I would be interested in any comments you may make 
on that.
    The other thing that I wanted to bring to your attention 
today, and I am 1pleased with the progress that we have made in 
terms of responding to Ground Zero and what we have done at the 
Pentagon and so on, but as you know, I am very concerned about 
the units that participated--the first responder units. We had 
an Ohio unit that participated at Ground Zero.
    A couple of weeks ago, you and I had a telephone call about 
the conversation about that, and I also talked to Governor 
Ridge. It is very, very frustrating that today that the 
information that these individuals need in terms of what they 
were exposed to, and you have mentioned there were some 
Agencies that have to be coordinated. The EPA and a couple of 
other ones still do not have the information in regard to what 
were they exposed to. Some of them have gotten asthma and 
pneumonia. I think it is incumbent on your Agency to work with 
the others and make sure that they get the information that 
they need so that they can find out what they have been exposed 
to, so that will give them some direction in terms of the kind 
of medical help that they need.
    Second of all, they need the forms, the paperwork that is 
necessary to be filled out so that they can take advantage of 
the Federal Compensation Program. What we have gotten back from 
them is that they have complained is that right now in some of 
the paperwork, they feel they are being nickeled and dimed in 
terms of the Agency. We are sending paper back and forth, and 
they are very concerned about--they have told my office that 
they have approximately $1 million in expenses from the work at 
the World Trade Center. They need help from FEMA to get 
reimbursed and the process is not going well. FEMA is nickeling 
and diming them on the paperwork and rejecting claims for what 
seems to be like bureaucratic reasons.
    I am concerned about that, because if we are going to have 
local responding units participate, and hopefully we will not 
have any more of these things, God forbid, but if we do, how we 
treat those that participated is going to have a lot to do with 
how willing they are to respond to other things that might 
occur. I would like to know just where are we on this. I think 
we owe it to them.
    Mr. Allbaugh. Senator Voinovich, you have asked several 
questions there. Let me try to take them in order.
    I, too, am deeply concerned about what everyone was exposed 
to in New York City. On February 1, I put together a task force 
representing all the Agencies. We are working through those 
issues. There was a followup meeting yesterday, that we will be 
sharing information that we have gleaned1 from all the Agencies 
as quickly as we possibly can.
    On the funding side, I know that there are a multitude of 
issues to be resolved. I would like to know specifically. I 
could meet with your staff about that particular issue. But we 
have made just about everyone whole on every submission that 
they have given us thus far. There are numerous teams that have 
not submitted any paperwork thus far. It is not my intention, 
nor do I believe it is anyone's intention at FEMA, to nickel 
and dime a USAR team to death when they have overhead that they 
need to take care of.
    So after this meeting, I would like to talk with staff and 
figure out exactly what their concerns are. We have an ongoing 
dialog with every USAR team member. We have a health team made 
up of 18 individuals that are closely monitoring each one of 
the teams. We deployed 21 teams to New York City. I am deeply 
concerned as to what those individuals are exposed to. We are 
monitoring that. I know that we spent $10 million thus far 
reimbursing those teams.
    Senator Voinovich. The question I have is what--at this 
stage of the game, it has been a long time. Senator Clinton is 
here with us, in New York, and many of her people were also 
exposed to it. What information have you made available to 
those individuals that were in New York and to the other first 
responder units as of today about what they were exposed to. 
That is No. 1. No. 2, has there been some kind of formal 
process that you put in place so that these people could take 
advantage of filling out the papers to be compensated for what 
they went through?
    Mr. Allbaugh. There is a formal process for each individual 
and for each team. We have asked them to have medical checkups. 
We have asked them to have blood tests for heavy metals, to 
have a chest X-ray. We are waiting for that information. We 
will pay for everything that they incur in this process as a 
part of the disaster. No one is going to be out a dime insofar 
as taking care of their medical concerns. This has been 
translated not only to each task force, but to each individual 
in a letter that I signed to those task force members. There 
were 1,400 and some-odd that were in New York City and we have 
communicated with every one of them directly.
    Senator Voinovich. I have found from my experience that how 
well we treat them now will have a lot to do with the kind of 
response that we are going to get from them in the future. I 
think that the response that came out from the country to the 
Pentagon, to Ground Zero was just spectacular. I hope that you 
can move on that as quickly as possible and get that worked 
out.
    Mr. Allbaugh. It is a primary concern of mine, Senators, I 
assure you. How we treat this folks today, as you alluded to, 
is how we will be able to respond in the future.
    [The prepared statement of Senator Voinovich follows:]
Statement of Hon. George Voinovich, U.S. Senator from the State of Ohio
    Mr. Chairman, thank you for holding this hearing today on the 
President's proposed First Responder Initiative. This is an important 
issue to Ohioans and other First Responders that were deployed to 
Ground Zero last September. I hope that as a result of these hearings, 
we can ascertain how we can help support our first responders in their 
home communities, God forbid to respond to other terrorist attacks that 
we may have.
    As I said on September 11th and several times since, I believe that 
our first responsibility is to support the victims and their families. 
Mr. Chairman, I also believe that we have a responsibility to ensure 
the health and safety of those who have worked on the front lines to 
respond to these terrorist threats. We have a responsibility not only 
to the New York police and firefighters but also the First Responders 
from Ohio and across the country and the people from the Federal 
agencies that responded.
    I got to see first hand the hard work of these State and local 
first responders when I toured the Pentagon with Senator Jeffords just 
a few days after 9-11 and then again when I visited Ground Zero a few 
days later. In both tragedies it was local emergency response 
personnel, not Federal personnel, who were the first on the scene and 
who provided the bulk of relief services.
    The stronger the relationship between FEMA and State and local 
first responders the better our Nation's overall preparation will be in 
the event of a terrorist attack. I am pleased that the President has 
evaluated the level of cooperation and responded with this proposal for 
the First Responders Initiative run through FEMA. To that end, I hope 
this program stays focused on terrorism response and that we make sure 
that funds authorized don't just end up augmenting the Firefighters 
Grant Program or paying for basic firefighting equipment, but instead 
are allocated based on the risk of a terrorist threat.
    I believe that given the mission of this agency, FEMA is perhaps 
the best choice of any Federal agency to oversee this initiative. After 
all, the basic responsibility of this agency is to lead the Nation in 
preparing for, responding to and recovering from major disasters by 
coordinating the efforts of up to 26 Federal agencies.
    Just last month I had the opportunity speak with some of the 
representatives from Ohio's Task Force One who worked at Ground Zero. 
These men and women expressed concerns about the lack of receiving 
consistent information about what they were exposed to so that they can 
be properly treated by their doctors. They still haven't received 
enough information to successfully process claims through the Federal 
claims system.
    Officials from Ohio Task Force One have told my office that members 
of the team have approximately $1 million in expenses, including health 
care expenses, from their work at the World Trade Center. They need 
help from FEMA to get reimbursed and the process is not going well. 
They have told my office that FEMA is nickeling and diming them on the 
paperwork and rejecting claims for what seems like bureaucratic 
reasons. These are not wealthy individuals by any means and these units 
operate on tight budgets. These are hardworking men and women who 
risked their lives to respond to a serious disaster.
    After that conversation, I had a chance to speak personally with 
you, Director Allbaugh and tell you exactly what the people in Ohio 
were worried about. I think we had a good conversation, however, I am 
disappointed that I have not had a response from your office. Can you 
tell me what FEMA is doing to expedite the reimbursements for these 
teams and their members? Also, what is being done to help these 
individuals know in advance what is expected of them from a paperwork 
standpoint so they can get their reimbursements as quickly as possible? 
Many of these expenses are health-related. Members of Ohio Task Force 
One have developed respiratory illnesses including pneumonia and 
asthma. What is FEMA doing to help the task force with its Federal 
workers compensation issues?
    I shared my concerns with Tom Ridge who said he would look into it. 
We still don't have any information. As I said to you, if we want State 
and local teams to be in a position to assist FEMA with disaster 
response, we must make sure that FEMA itself responds after the 
disaster when these teams have needs. I hope that before the week is 
out, we can get the information they requested, not just for Ohio, but 
for all of the teams of First Responders that came from all over this 
country to lend a helping hand in New York City.
    On the issue of how to strengthen relationships between FEMA and 
State and local first responders, I'm confident that today's witnesses 
will help to lead us in the right direction and give us some insight on 
how we should proceed. I would particularly like to welcome from 
Findlay, Ohio, the President of the University of Findlay, Mr. Kenneth 
Zirkle. Mr. Zirkle, welcome to today's hearing. I am sorry that I 
cannot be here for your testimony this afternoon. I have a Governmental 
Affairs Committee hearing taking place at the same time and as the 
Ranking Member on that Committee, I need to be in attendance. However, 
I appreciate you coming here today and, I would like to commend the 
University of Findlay on their Environmental Health and Safety 
preparedness program. I look forward to reading your testimony in the 
record.
    Mr. Chairman, it is my hope that this Committee will work hard to 
ensure the President's vision of a successful First Responders 
Initiative becomes a reality. I look forward to working with each 
member of this committee to make sure that we reach that goal and 
working with FEMA to get the information necessary to help our First 
Responders in Ohio and everywhere else in this Nation.

    Senator Jeffords. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Director Allbaugh, we agree that the single most important 
thing to improve emergency response and to save lives is to 
enable these first responders to talk to each other. I think 
the country was just horrified that in New York City, arguably 
the most sophisticated communications place on the planet, you 
had these firemen hand-walking in the messages that you talked 
about before my subcommittee in December, and mentioned again 
today. Of course, this is because systems break down in these 
tragedies and many are incompatible.
    Would it be possible under the First Responder Initiative 
to use some of those dollars to work on projects to promote 
communications interoperability? I am going to in my 
legislation that I have talked about on a number of occasions--
we are going to make some funds available under my legislation 
for some pilot projects to promote communications 
interoperability. But I know that some of the local government 
folks that are here and have been visiting are wondering 
whether some of the money under the First Responder Initiative 
could be used for these kinds of projects as well. I am sure 
this is early on in terms of the Administration's work, but 
what are your thoughts on that?
    Mr. Allbaugh. I am sure we could use some of that money for 
that, but once you start dipping into what the purpose of the 
money is for, then you dilute and you are ultimately going to 
cut out the amount of money that we are able to distribute. We 
are planning to distribute $3.5 billion in four broad 
categories, No. 1, having the ability to do proper planning; 
No. 2, proper training; No. 3, exercises; and No. 4, equipment 
purchases. Now, we are setting aside just a ballpark figure--$2 
billion--for equipment purchases. I am sure there might be a 
few dollars we could use out of that for further study. But I 
am reluctant to dip into that.
    What I am interested in is getting the most amount of money 
we possibly can to those State and local entities, and that is 
why we decided to cap, quite frankly, the States' portion or 
participation at 25 percent of this money so we can force the 
bulk of the money--75-80 percent of the money--on down to the 
local communities where they actually need the money the most 
to make the difference in saving lives and protecting property.
    Senator Wyden. Now, you have also said that in the wake of 
the terrorist attacks, you all were flooded with proposals for 
technology to help you do you your job, and mentioned that 
because the Agency is an operational organization, it really is 
not set up to evaluate and test new technologies. I have 
gathered from comments you have made earlier that something 
with testing facilities capable of evaluating whether some of 
these technologies work and are particularly useful compared to 
the alternatives would be helpful to you. Do you think that 
something like that would be a step forward for FEMA right now?
    Mr. Allbaugh. I do think a clearinghouse to test some of 
these alleged proven technologies would be very beneficial. We 
are not set up in that fashion. We are a response mechanism, a 
preparation mechanism, a teaching mechanism, a preparedness 
entity. We do not have the testing facilities. I know there are 
many other Agencies, for example NIST over at Commerce, could 
be a perfect entity to take on this responsibility for all of 
the Federal Government.
    Senator Wyden. I would like to explore further with you the 
role of NIST, because I think that that is an Agency that 
perhaps has been underutilized and I share your views in that 
area.
    Now, we also would like to have, as I mentioned in my 
opening statement, a data base of technology and scientific 
expertise in communities around this country, so that your 
people, State and local emergency officials and others can turn 
to it quickly. You have also indicated that right now, there is 
some confusion with respect to where you turn to get 
technological and scientific expertise. Do you think the kind 
of data base that I am describing here could be helpful to your 
people?
    Mr. Allbaugh. It probably could be helpful. The basis of 
our knowledge stems from our long-term existing contracts with 
major players across the Nation. Those are the individuals--not 
individuals, but companies that we turn to when we have a 
specific need. I am interested in pushing the envelope and 
testing that brain matter even further. Not all ideas reside in 
one particular location. So if there is a data base for a 
particular expertise, I would like to take advantage of it.
    Senator Wyden. Let me ask you about just one other aspect 
of what I have been looking at, to make sure that we tap all 
the potential in the private sector. That is the Strategic 
Technology Reserve. I really do compare it to the Strategic 
Petroleum Reserve. The Strategic Petroleum Reserve is there if 
we get into a crunch with respect to oil and energy. What I 
have been told is all across the country we could really bank, 
either literally or in terms of a virtual kind of assurance, 
tremendous resources from the private sector. Do you think 
something like that would be worth exploring as well?
    Mr. Allbaugh. I think it is worth exploring. I am afraid I 
do not know enough to really comment.
    Senator Wyden. Well, we are going to be soliciting the 
views of the Administration, but I think in particular the 
First Responder Initiative and the focus that you have placed 
on making sure the dollars get to the local level and make 
sense, I want you to know that I am going to be working closely 
with you and the Administration to try to have the private 
sector supplement it. We are going to include some dollars for 
some pilot projects in terms of communications 
interoperability, to keep those data bases in place in terms of 
private resources, for test beds so that you and others will be 
able to evaluate products. We want to talk to you some more 
about the Technology Reserve.
    I want to thank you as well for your responsiveness.
    Mr. Allbaugh. Well, I thank you for that. I think if there 
is one issue we should try to solve nationwide it is the 
communications problem. It does more and will do more to save 
lives and protect property than just about anything else that 
we will probably talk about here this afternoon.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Jeffords. My good friend and neighbor, Senator 
Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Mr. Director, welcome. It is good to see you here. Welcome 
also to my friend Woody Fogg who will be testifying on the next 
panel, from New Hampshire.
    I did have a prepared statement, Mr. Chairman, which I will 
introduce as part of the record.
    Senator Jeffords. Without objection.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. I just want to ask a couple of questions of 
you, Mr. Director. I in many ways have sympathy for you knowing 
the turf battles you are going to have to fight here as you try 
to put all of this into one effective emergency responding 
Agency or entity or whatever the correct term is.
    To me, it makes sense for FEMA to be the Agency to lead 
this effort. They have a great track record, and I know this 
decision by the President has not come without some internal 
strife. But you are a tough guy. You look tough, too. I mean, 
that is the thing.
    Mr. Allbaugh. I take that as a compliment.
    [Laughter.]
    Senator Smith. But I think it is common sense. We all fight 
these inside the beltway turf battles. Hang in there. We will 
get to the heart of it. The most important thing is to do what 
is right for the Nation, and that means that if something we 
support is not right, then we will come around to that view, I 
think, in the end, to do what is best-suited.
    I am going to just throw four issues out there that give 
you a chance to respond briefly, on the points that they make 
about why it should not be FEMA, and just who is the lead 
Agency, and you can respond to it in any way that you see fit.
    The first point, first criticism, which is not my 
criticism, but the general criticisms, is that FEMA is not a 
grant Agency, therefore would not be effective in being the 
lead Agency in this effort.
    Mr. Allbaugh. Senator, the best way to respond to that is 
rely upon our track record. In 2001, we issued grants over $3.5 
billion alone in a multitude of programs. Unfortunately, as a 
result of the incident in particular in New York City, as 
Senator Clinton knows, we will alone this fiscal year approach 
$8 billion and probably even go higher than that. These are 
dollars that make a difference in individual's lives. We have 
excellent relationships with the States. We move the money very 
quickly. I am very proud of our NPS's, which are 
teleregistration facilities. We have four of them. Normally, 
when an individual calls and registers with us over our 800 
line, within 2 or 3 days or maybe 4, they are receiving a check 
from us to help them get back on their feet. So we know how to 
move money. We move it very quickly and to say we are not a 
grant Agency, that is probably about 50 percent of what we do 
is move money.
    Senator Smith. How about the issue that ODP programs are 
primarily law enforcement, and you are not a law enforcement 
Agency?
    Mr. Allbaugh. We are not a law enforcement Agency. I do not 
want to become a law enforcement Agency. But I do believe that 
communities should not be confused where they go for their 
first responder training. Whether it is at FEMA, Justice, 
Defense Department, EPA--it does not matter to me. I think we 
ought to provide a unified, simplified, one-stop shop for all 
types of training. Most of the ODP training that I am aware of 
revolves around basic firefighting, which we do through our 
Fire Administration, HAZMAT, and rescue operations.
    So I think it is important to the American public that we 
make it as simple as we possibly can insofar as going to a 
repository for all their training.
    Senator Smith. The other issue which is often raised, which 
I had a chance to witness first-hand, and I know Senator 
Clinton and others did, was the issue that it may not be the 
best option as a coordinating Agency. I was in New York I think 
5 days or 6 days after the attack, and saw the building that 
FEMA had set up there with just--I was commandeered, I guess, 
on the docks there. I forget what the building was.
    Mr. Allbaugh. Pier 90.
    Senator Smith. Pier 90.
    Mr. Allbaugh. Yes, sir.
    Senator Smith. Thank you.
    It was amazing--all the hustle and bustle, and the booths 
and the people. Basically what could have been total confusion 
was not. It was very organized and compartmentalized. If there 
is anybody that could do it any better than that, I do not know 
who it is.
    Mr. Allbaugh. Well, we are charged specifically by the 
President and through the Federal Response Plan to be the 
Agency of coordination and facilitation. We do not have a lot 
of Federal assets that we own personally. What we do have is 
the knowledge to commandeer those assets that other Agencies 
have, and mobilize them in a timely fashion to save lives and 
protect property. That is one of the things that we do best.
    Senator Smith. Thank you.
    Thank you, Mr. Chairman.
    Senator Jeffords. Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you, Mr. Chairman.
    It is a pleasure once again to have the Director here. I 
cannot express eloquently enough, I am afraid, my personal 
gratitude and the gratitude of New Yorkers for the 
extraordinary job that he and his team have done. I appreciate 
your bringing this First Responder Initiative to this committee 
for our consideration. I am hoping that we can work through 
some of the questions that have been raised because clearly 
what we have learned since September 11 should inform 
everything we do from this point forward. That is what I know 
the Director and his staff are attempting to do.
    I have introduced a Homeland Security Block Grant last 
November or so because what I started hearing were the concerns 
that this initiative attempts to address, from all over New 
York, where far away from New York City, in places like 
Buffalo, for the first time they were just getting calls for 
hazardous materials responses and found themselves going deeper 
and deeper into red ink trying to figure out how to get out 
there and help, especially after the anthrax attack.
    Among the questions that I would like to ask the Director, 
it really comes down to how do we make sure that we not only 
get the money out there to the local community, but that the 
local community is able to use it both for the planning and the 
exercise and the training and the initiatives that you have got 
in your description here, but what is happening now is that 
they are spending so much money on overtime. They are just 
going deeper and deeper into debt. I have been meeting with the 
Conference of Mayors, and I am wondering, Mr. Director, how we 
are going to help them out of their new increased obligations? 
How do we take care of these overtime expenses, for example? 
Because elsewhere in the President's budget, I know that we are 
seeing cutbacks in the COPS program and the local law 
enforcement block program. So at the same time that we are 
trying to upgrade our capacity to respond to disasters, we are 
cutting some of the resources we would otherwise give to local 
law enforcement.
    You know, there seems to be a kind of mismatch. This does 
not fall under your bailiwick, because you are trying to get 
everybody up to speed for disasters, but the front line of 
those disaster responses are our local police and fire. So how 
are we going to take care of issues like overtime expenses 
attributable to responding?
    Mr. Allbaugh. I am not sure how to answer that, except that 
I do not believe the Federal Government should bear the brunt 
of all those expenses. I think we are in partnership with State 
and local communities as we proceed down this road together 
addressing these personnel issues. I really do not want to be 
in the personnel business either. I think that is a local issue 
more than anything else.
    What we can do is provide them standards and the technical 
expertise; draw a roadmap, if you will; help them to try and 
get there along the way by giving them also a certain amount of 
flexibility to achieve some local concerns. It will take time 
and it will take money. But I know communities all across the 
country are fighting the battle of overtime on personnel. I was 
in Syracuse last night and this morning; sat with the Fire 
Department there and it is their No. 1 concern. Plus, they have 
many members of the Department that are coming up for 
retirement, and it is difficult on the recruitment side; it is 
difficult on the retention side. This is not a problem that 
resides just in one community. It is all across the United 
States. I am all ears, as they say. I am searching for that 
answer as well.
    Senator Clinton. I think that that is a matter of great 
importance to this committee, because the first line of our 
homeland defense are those local responders, so we have to 
figure out how we are going to help local communities be able 
to confront that.
    I want to followup, too, on what Senator Voinovich said. 
The efforts we have made to try to provide information, and 
this committee was nice enough to authorize a subcommittee 
hearing that Senator Lieberman chaired that I asked for in 
Lower Manhattan, to try to get to the bottom of what was going 
on with the air quality issues. What we hear, what Senator 
Voinovich hears from his first responders in Ohio, we have not 
completed a medical screening of our firefighters--25 percent 
have some kind of respiratory, bronchitis, asthmatic reaction. 
One thing that I believe we should try to do across the board, 
and I appreciated what you said to Senator Voinovich, was to 
pick up some of the costs for those medical exams, because the 
Federal Government needs to know what we are learning from 
them. This is something that needs to be factored into the work 
that FEMA does. So I think we really should look and try to 
figure out how better we can both screen our first responders 
and then do followup medical treatment.
    Mr. Allbaugh. I will tell you one thing, and members as 
well, Senator Clinton, that as a result of one of the lessons 
we learned in deploying our urban search and rescue teams for 
September 11th, these men and women were deployed without any 
type of medical exam prior to deployment. What we have 
instituted since that date is that everyone will receive a 
medical exam prior to deployment so we have a baseline when 
they return to compare to. I think it is a positive step. I 
think members of those task forces appreciate that step. As we 
learn more, we will continue to change. We have to be cognizant 
of being able to have the flexibility to add new procedures 
when called for. This was a perfect example.
    Senator Clinton. I have some additional questions which I 
will give to the Director in writing.
    Thank you, Mr. Chairman.
    Senator Jeffords. Senator Warner.

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, for having this important hearing.
    So nice to see you again, Director Allbaugh.
    Mr. Allbaugh. Good to be seen, Sir.
    Senator Warner. I remember vividly our first meeting when 
we described FEMA. It appeared to be a relatively 
straightforward assignment. Now, you have, I think, the most 
important assignment, next to the President, and that is 
homeland defense. Our President had the wisdom way back before 
he was elected, in his speech at The Citadel, to express his 
concern for preparing to defend America here at home. The rest 
is history. Now that responsibility in many respects falls on 
your shoulders, and I am glad that this committee is going to 
give you the support that you need.
    Mr. Allbaugh. Thank you, sir.
    Senator Warner. We were talking about Senator Wyden, a very 
important subject on the interoperability. I went to the 
Pentagon about 5 hours after that plane hit, and worked with 
the Secretary of Defense. I went out and saw the responders and 
experienced then some of the difficulties of the inability to 
have a common communications system. I am pleased to say that 
we, Virginia and the area here, the greater metropolitan area 
of Washington, got $20 million to get this interoperability 
into our system. So I hope it can be achieved elsewhere.
    I turn now to the urban search and rescue teams. I would 
like to mention here that it was Senators Nunn, Lugar, Domenici 
and I joined them in 1997, that had the vision; and it was 
President Clinton who, on his watch as President, enacted these 
measures into law. So I am going to read a rather lengthy 
question, and I will see that it is handed to you, and ask you 
for your views on this question.
    The search and rescue teams have proven to be a vital 
component to our emergency response efforts even before 
September 11. In Virginia, the Fairfax team has responded to 
earthquake recovery efforts worldwide. Also, the Virginia Beach 
team responded at the Pentagon attack. As you well know, these 
urban search and rescue teams bring uniquely trained 
professionals and equipment to disaster scenes. State and local 
rescue efforts do not have these capabilities.
    The following situation came to my attention shortly after 
September 11, and I credit the distinguished Mayor, Meyera 
Oberndorf, for bringing this to my attention--the Mayor of 
Virginia Beach. The task force at Virginia Beach consists of 
180 trained individuals. On September 11, 62 members of the 
task force responded to the attack on the Department of 
Defense. Only one-third of the 180-man team could be outfitted 
to respond. The rest of the team members remained in Virginia 
Beach. If there had been another incident, they would not have 
been able to respond because of a lack of equipment.
    Also, it is my understanding that last year FEMA designated 
Virginia Beach as one of six FEMA task forces nationwide to 
respond to domestic attacks involving weapons of mass 
destruction. It is clear that these premier urban search and 
rescue teams are not fully equipped to perform their missions.
    Can you tell me and the committee what are the funding 
needs to fully equip and train the existing 28 FEMA urban 
search and rescue teams across America?
    Mr. Allbaugh. Sixty-four million dollars to get them up to 
speed immediately. We have submitted not only for the 2003 
budget, but for the 2002 supplemental; $15 million for the 2003 
budget. It was subsequently cut back; and in the supplemental, 
$32 million. But it is a high priority for me to properly 
equip, properly train, make sure that they were WMD trained, as 
you said--6 of the 28 are trained to that capability right now, 
and that is not satisfactory in my book.
    Senator Warner. My understanding is, you said $64 million. 
There is $6.5 million only in the President's budget.
    Mr. Allbaugh. Yes, sir, I know.
    Senator Warner. Consequently, Mr. Chairman and members of 
the committee, I think it is incumbent upon us to address that 
issue in the forthcoming deliberations on our budget.
    My second is the First Responder Initiative. Again, the 
three mayors in the Virginia Beach-Tidewater area--Meyera 
Oberndorf, Joe Frank and Paul Frame have put this question to 
me.
    We applaud the President's initiative to provide critical 
resources to the local police, fire and rescue. We saw first-
hand how critical local fire and police were in responding to 
the attack on the Pentagon as Arlington County was the first 
onsite, and ultimately became the on-scene coordinator for all 
recovery efforts. Also, every major fire department in the 
metropolitan Washington area provided critical resources at the 
Pentagon. Many of us are very interested in the criteria that 
FEMA will use to allocate the first responder grant funds.
    I believe we all know that many local fire and police 
departments are the only resources to protect critical Federal 
installations. The Virginia example is very telling. We know 
that Arlington County and other local departments are the only 
responders for major Federal installations from the Pentagon to 
the Central Intelligence Agency. Elsewhere in Virginia, local 
fire and police are the first responders to major defense 
installations in the Hampton Roads area.
    Can you tell me to what degree will we be protecting 
critical Federal facilities factor into FEMA's criteria for 
this new First Responder Initiative?
    Mr. Allbaugh. Well, we have not addressed that yet, 
Senator. We are in the midst of internal discussions on that 
subject. I would be happy to get back with you when we bring 
that to closure. I can assure you we have and will have in the 
future ongoing dialog with State and local entities to make 
sure they have ample opportunity to have their say about this.
    I am most concerned about setting standards. I am most 
concerned about accountability. I am most concerned about 
giving these departments the flexibility to meet what they see 
as their priorities, as well as facilitating the continuing 
buildup of our infrastructure nationwide.
    Senator Warner. They are the ones that have to respond. 
They need the financial support, and it has to be in the $3.5 
billion that you are now funding.
    Mr. Allbaugh. Yes, sir.
    Senator Warner. Thank you.
    Thank you, Mr. Chairman.
    Senator Jeffords. Senator Corzine.

OPENING STATEMENT OF HON. JON S. CORZINE, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. Thank you, Mr. Chairman.
    I welcome Director Allbaugh. It is terrific to see you. I 
want to commend you and all of the people at FEMA for the 
tremendous response that we have seen given to the September 11 
attacks. I want to specifically say that you have been very 
responsive, and your people have been to New Jersey's dialog 
about recovery needs. They are ones that I will give more 
emphasis to in my questions. But I do hope that you will get a 
sense that we are very much strongly supportive of the 
initiatives being put into FEMA on this first responder 
preparedness.
    Mr. Allbaugh. Thank you, Senator.
    Senator Corzine. I will go parochial for a second. There 
are a number of issues that fall out of the post-September 11 
situation that impact New Jersey. We have had conversations 
with a number of your folks, including Deputy Director Brown, 
about transportation infrastructure, particularly as it relates 
to the changed patterns of transportation that have occurred 
because of the PATH closure.
    There is significant dialog about whether funding on that 
actually will be recognized or taken into consideration. We are 
under the impression, and the Governor's office and the 
Attorney General's office are that FEMA is authorized to cover 
New Jersey's interim transportation needs. I wonder if that is 
your understanding?
    Mr. Allbaugh. That is my impression as well. I am not sure 
as to the specific incident or issue that you are referring to.
    Senator Corzine. It has to do with actually paying for 
additional ferry, rail and bus service that is really taking 
the overflow or the redistribution of transportation.
    Mr. Allbaugh. I do not know specifically about that, 
Senator, but I would like to take the opportunity to check that 
out and then respond back to you on that.
    Senator Corzine. We will put in writing the specifics of 
it. But it is a very heavy burden on the State, and I think it 
is actually very important for the revitalization of Southern 
Manhattan.
    Mr. Allbaugh. My recollection, and I am receiving 
confirmation that it is eligible, so I am not sure why there is 
a roadblock, no pun intended, as to why this is not going 
forward.
    Senator Corzine. We would very much love to hear a response 
about where it stands in the process.
    Mr. Allbaugh. We will do that.
    Senator Corzine. I know you have many priorities. This is 
one that our people are concerned about.
    The second issue is about straight time reimbursement for 
some of the aid provided to the New York response, which is a 
continual issue.
    Mr. Allbaugh. Right. Right.
    Senator Corzine. Aid to New York that was provided in New 
York, whether it is State police closing down tunnels and 
bridges, or hospital services provided. There continue to be 
open questions about whether that meets the criterion. We have 
a number of communities that are pressed just as I am sure many 
local communities are across the country, but they took on 
additional burdens that are really quite substantial. The two 
Senators from New Jersey were encouraging the folks to do what 
they needed to do, not that they would not have done that 
anyway, but there was a sense of good faith that they would be 
treated in a mutual aid resource agreement for the efforts they 
made.
    Mr. Allbaugh. I was in New York yesterday and Sunday, and 
had a meeting specifically on this issue. It is my 
understanding that we are moving along on getting a lot of 
those issues resolved. If there is something specific that we 
are not addressing, I think I need to know that as well.
    Senator Corzine. We will go through that. There are a 
number of communities up and down the----
    Mr. Allbaugh. Could you add that to your letter?
    Senator Corzine. Yes. We will do that.
    Mr. Allbaugh. We would appreciate that.
    Senator Corzine. I will make sure that we have it.
    Mr. Allbaugh. If there are communities that are missing in 
the dialog, I want to get them in the mix, of course.
    Senator Corzine. A lot of this is just the mechanics and 
logistics of getting it done, and I know you have a lot of--
your people have been quite engaged and open to process it 
along.
    Thank you.
    Senator Jeffords. Senator Voinovich.
    Senator Voinovich. Mr. Allbaugh, when you came to my office 
and we talked prior to your confirmation hearing, we talked 
about the human capital crisis that is confronting the United 
States of America.
    Mr. Allbaugh. Yes, sir.
    Senator Voinovich. For the benefit of the committee 
members, by 2004, we could lose about 55 percent of our people 
through early retirement or regular retirement, and our Senior 
Executive Service up to about 70 percent by the year 2005. You 
indicated you thought that you were in fairly good shape.
    Mr. Allbaugh. We are not in good shape.
    Senator Voinovich. I am really worried about that because 
one of the things, and I hate to be bringing back news from the 
locals in Dayton, but the fact of the matter is they have said 
that they think that you really need a lot more people in the 
urban section of FEMA. I remember being up at Ground Zero, and 
of course that as an extraordinarily unusual situation, but we 
had people from the Department of Energy. You just went out and 
scouted up the best people you could to give you assistance 
there.
    I would like for you to share with the committee what plans 
you have under way to deal with the human capital needs that 
you have currently, and what additional capital needs are you 
going to have to respond to in terms of taking on this new 
responsibility. Last but not least, do you have the budget and 
the tools to attract that people that you are going to need to 
get the job done?
    Mr. Allbaugh. I have been in this position about a year, 
and it was clear to me right up front that we have not been 
spending enough time internally on our employees--properly 
training them, helping them with a career path. Retention was a 
problem. Recruitment--there was essentially no recruitment. I 
brought in about a month and a half ago a new Human Resources 
Director from OPM, Doug Fair. We are working together in 
crafting a plan to address all of our needs.
    I think over the next 18 months, somewhere between 45 and 
50 percent of our Agency is eligible for retirement. That is 
just a lot of gray matter to be walking out the door. Since 
September 11, the retirements have accelerated. People have 
come to my office with a different perspective on life, which I 
cannot fault them for--wanting to spend time with their kids, 
their grandkids, their spouses.
    But it is a severe need that we have at FEMA, particularly 
given the stresses and strains of responding to disasters 
natural and man-made. I do not have an answer crafted yet. I 
would be happy to get back to you, sir. I know Doug is working 
as hard-out to try and accommodate me on a variety of issues in 
this arena. Whether we have the necessary budget or not, I 
would have to say probably not right now. FEMA suffers from its 
own successes in that if you want a job done you give it to 
FEMA and oftentimes we are given the task to perform, but not 
necessarily the resources to complete the task.
    So as a result, many of our people in not only the 
Washington headquarters, but in our 10 regional offices, wear 
two, three, and four or five hats at the same time. It puts an 
inordinate amount of stress on those individuals, on their 
families who I think make the ultimate sacrifices because those 
individuals are kept away from home more than necessary.
    I would like to respond back to you in writing and tell you 
exactly how we are doing.
    Senator Voinovich. I would like to have you do that in 
terms of what your current needs are, what additional needs you 
are going to have when you take on these new responsibilities.
    Mr. Allbaugh. We have identified with the First Responder 
Program. We do know what we need.
    Senator Voinovich. Also the issue of tools, because in 
another committee that I am supposed to be at right now, Mr. 
Chairman, we are dealing with this issue of human capital and 
the President's management agenda, and after 3 years, my 
agenda, and trying to give Agencies the flexibility that they 
need to retain the people that they have on-board and to 
attract in people at the entry level and actually at the mid-
management level. One of the things that I must say that too 
often here we talk about the money to buy things, but we 
neglect the fact that Agencies in the Federal Government need 
the tools and the people to get the job done. We are all 
talking about Enron. Well, if you go and check at the 
Securities and Exchange Commission, you will find that they 
have lost a third of their people because of the fact that 
their pay scale is--I think, Senator Corzine, you know that--
not competitive.
    We can just go straight through the Federal Government and 
find that we have some really severe problems because we had a 
period of downsizing without any attention to reshaping those 
Agencies to get the job done. If he does not have the people 
that he needs to get the job done, I do not care what we do in 
terms of some of these other things that we are talking about 
today, he will not be able to perform properly.
    So I am really interested in your providing that to me. I 
want to stay on top of it. I know I have been a little bit 
tough on you today.
    Mr. Allbaugh. Have you?
    Senator Voinovich. Yes, I have.
    Mr. Allbaugh. We have a few answers, but I do not think you 
have been that tough.
    Senator Voinovich. But I just want to say to you----
    Mr. Allbaugh. There are questions that need to be answered, 
and if I do not know about them, we need to get the answers to 
you. So I think that is fair.
    Senator Voinovich [continuing]. I would like to say to you 
that I thank you very much for the sacrifice that you have made 
for your country, and the hours that you have put in. I thank 
your lovely wife for the sacrifice that she and your family 
have put up so that you could continue to do this job. I think 
so often we take for granted the people like you that come into 
government. We do not appreciate what you go through. I just 
want to say thank you very much.
    Mr. Allbaugh. Thank you, Senator.
    Senator Jeffords. We all join in that thank you.
    Senator Wyden, last question.
    Senator Voinovich. Mr. Chairman, could I do one other 
thing? Pardon me--I just want to introduce Ken Zirkle from 
Ohio. I failed to do that. Ken is at the University of Findlay.
    Senator Jeffords. Stand up, Ken.
    Senator Voinovich. He has trained all of our EMS people in 
Ohio. Ken, I have to run out of here because I have to go to 
the other committee that is dealing with this human capital 
thing, but thank you for being here today.
    Thank you, Mr. Chairman.
    Senator Jeffords. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I do not want to 
turn this into a bouquet-tossing contest, Director Allbaugh.
    Mr. Allbaugh. Please don't.
    Senator Wyden. I think it is clear you have a lot of 
support here, and particularly on the proposition that your key 
programs are going to need more resources. I want to ask you 
about the urban search and rescue area in particular. As you 
know, I think this is a very attractive kind of program. 
Senator Warner touched on it as well. It is one that works.
    I really see it as a model for an area that I am interested 
in getting into, and that is to mobilize people in the science 
and technology area. I tentatively called it NETGuard--the 
National Emergency Technology Guard where we would rely on 
people from private enterprise to help with people and 
equipment. What is your sense? Do you think that properly 
developed--and we are going to be asking the Council of the 
executive branch on it--that these kinds of teams, these kind 
of NETGuard teams could play a useful role in assisting the 
efforts of local emergency response authorities?
    Mr. Allbaugh. I think if they are focused and they 
understand who is in charge when it comes to the decisionmaking 
process, that obviously smart people who have the right talent 
could be nothing but an asset to responding to disasters man-
made or natural.
    Senator Wyden. That was what I was hoping to see evolve. 
The last thing you want to do is to get talented people, say, 
from Intel or Microsoft or these leading technology companies, 
to basically come on into a very difficult situation and sort 
of stand around and get in the way. We want to work with you to 
make sure that we mobilize these resources so that they do not 
usurp the authority of the local first responders and really do 
complement what you and your people are doing on the ground. We 
will be asking for your counsel, and I thank you, Mr. Chairman.
    Mr. Allbaugh. Thank you, Senator.
    Senator Jeffords. Thank you sincerely for very, very 
excellent answers, and we enjoy working with you and look 
forward to working with you again.
    Mr. Allbaugh. Thank you, Mr. Chairman. I appreciate the 
support this committee has given FEMA. It is an important 
Agency, as you all recognize. We look forward to working 
closely with you in the future. Thanks for your support. Thanks 
for having me here today.
    Senator Jeffords. Thank you.
    Our next panel and last panel--four wonderful individuals--
Mr. Woodbury P. Fogg, P.E., on behalf of the National Emergency 
Management Association, Washington, DC.; Mr. Ed Wilson, chief, 
City of Portland Fire Department, Portland, OR; Mr. Mike 
O'Neil, chief, South Burlington Fire Department, Burlington, 
VT; and Mr. Kenneth E. Zirkle, president, University of 
Findlay, Findlay, OH.
    Please proceed. Yes, start with Mr. Fogg.

 STATEMENT OF WOODBURY P. FOGG, NATIONAL EMERGENCY MANAGEMENT 
                          ASSOCIATION

    Mr. Fogg. Thank you.
    Chairman Jeffords, Ranking Member Smith and members of the 
committee, thank you for the opportunity to appear before you 
today to offer comments on the First Responder Program. The 
National Emergency Management Association, NEMA, supports 
Federal efforts to increase the emergency management capacity-
building at the State, territorial and local level for 
personnel, planning, training, equipment, coordination and 
exercising. A significant Federal commitment must be made to 
give State, territorial and local governments the tools to 
ensure adequate preparedness.
    While States have significantly increased their commitment 
to emergency management over the last decade, those States are 
struggling with budgetary issues and the increased investments 
necessary to meet these new demands.
    In my testimony today, I am going to make five key points 
about the proposed First Responder Program. No. 1, all efforts 
need to be coordinated through the States to ensure 
harmonization with the State emergency operations plan and the 
Federal response plan, to ensure equitable distribution of 
resources, and to coordinate those resources for intra-State 
and inter-State mutual aid.
    The Stafford Act successfully uses States and Governors as 
the managers of Federal disaster relief funds for local 
governments which are overtaxed and need assistance. There is 
no question that most of that $3.5 billion proposed First 
Responder Grants Funds needs to go to police, firefighters, 
emergency medical and public health workers, and other front-
line local responders. We can effectively ensure this by 
working through the States to build on the statewide plans that 
FEMA, the Department of Justice and other Agencies have already 
required. State emergency management has a proven track record 
of passing most of the funds they get through to the local 
level. That is something they have done for years and done 
well.
    No. 2, State emergency managers need to have a commitment 
for sustained Federal resources and the flexibility to ensure 
the hiring and training of sufficient professional personnel to 
manage the expanding antiterrorism programs. We are concerned 
that an influx of new and separate funding programs from the 
Federal Government could actually detract from our all-hazards 
approach. Building a statewide emergency management capability 
is key to ensuring preparedness across the board. I like to say 
this is not just about terrorism. This is about preparedness--
preparedness in general for all hazards.
    Emergency management performance grant--otherwise known as 
EMPG--is the only flexible, consistent source of Federal 
funding for State and local capacity building. As the existing 
funding stream, EMPG could be used quite quickly to hire State 
and local staff to manage critical programs and build the 
incremental emergency management capacity and prepare for the 
first responder grants and the coordination that will be 
required to execute these programs. EMPG is already in place 
and it is effective. It could move money very quickly to the 
ones most in need, and it allows tailoring on a State-by-State 
basis and a locality basis, and allows the taking of a 
statewide approach.
    Emergency management is overstressed and working to 
capacity to address this new environment, and we need relief 
now. In that vein, we are requesting an additional $200 million 
in funding for EMPG in the April supplemental appropriations 
package to serve as a down payment or an initial, a kick-start, 
for addressing emergency management needs. In 2000, well before 
September 11, a NEMA survey of the States revealed a $123 
million shortfall in Federal funding of State and local 
emergency management programs, and Congress needs to address 
this shortfall.
    No. 3, standards must be developed to ensure 
interoperability of equipment, communications and training 
across State, regional and local jurisdictions. NEMA was a 
leader in the creation of the Emergency Management 
Accreditation Program, or EMAP. This voluntary standards and 
accreditation program for State and local emergency management 
is based on the National Fire Protection Association's 
standards and on FEMA's capability assessment of readiness, or 
CAR. NEMA suggests that these standards, which are already 
being implemented through EMAP, be incorporated in the 
development of any minimum standards for training, exercise and 
equipment. This is something we have already in place. It is 
beginning to work. I hope we can begin to use this program for 
domestic preparedness.
    No. 4, mutual aid, both intra-State and inter-State, is a 
key component to capacity building, and a proven system we need 
to take advantage of for all domestic preparedness planning is 
the Emergency Management Assistance Compact, or EMAC. EMAC is 
an inter-State mutual aid agreement that allows States to 
assist one another in responding to all kinds of natural and 
man-made disasters. There are 46 States and 2 territories that 
are already members of EMAC, and the other States and 
territories are considering joining. As an example, in response 
to September 11, several States provided support to New York 
through EMAC. It is a system that works. We use it for nearly 
all major disasters now.
    No. 5, State and local government must be fully, directly 
and continuously involved and consulted in development of the 
national domestic preparedness strategy. NEMA espouses a 
national strategy, not just a Federal one. We look forward to 
working with the Office of Homeland Security toward the 
development and implementation of that strategy.
    In conclusion, close coordination of programs and Agencies 
in building this capacity to deal with truly catastrophic 
events is the key to success in assuring our Nation's 
preparedness against terrorism. One of the best demonstrations 
of the value of better Federal, State, private and local 
coordination was the TOPOFF exercise in 2000. We hope that the 
First Responder Program will aid in national coordination and 
preparedness. I have submitted written testimony, with copies 
of NEMA's 10 principles on a domestic national preparedness 
strategy, and a white paper that was done earlier this year. I 
request that that be entered into the record.
    Senator Jeffords. It will be.
    Mr. Fogg. Thank you.
    Thank you for your commitment to ensuring our Nation is as 
ready as we can be. Are there any questions that I can answer?
    Senator Jeffords. Thank you. We will have questions later.
    Our next witness is Mr. Ed Wilson, chief of the city of 
Portland Fire Department, from Portland, OR. Please proceed.

   STATEMENT OF EDWARD WILSON, CHIEF, CITY OF PORTLAND FIRE 
                    DEPARTMENT, PORTLAND, OR

    Chief Wilson. Mr. Chairman, Senator Wyden, members of the 
committee, I am Ed Wilson, fire chief of the city of Portland, 
OR. I want to thank you for the opportunity to address the 
committee today.
    Two weeks after the September 11 attacks on our Nation, 
City of Portland Mayor, Vera Katz directed me to join with our 
partners in public safety in our region to determine our state 
of preparedness for a terrorist attack and to conduct a needs 
assessment.
    On behalf of all the emergency responders in major cities 
across the United States who undoubtedly undertook similar 
processes, I am here to testify about our findings and briefly 
outline what we would do with additional funding to increase 
our readiness.
    Like many large cities, we are on the right track with 
regard to planning for a mass casualty incident and have been 
for many years. Most large cities have functional plans in 
place and well-trained responders on all levels. Since 
September 11, however, we have focused on a few key areas to 
improve our plans in case the unthinkable happens--that being a 
terrorist attack in our home town. As large cities in the 
United States, we have numerous factors that put our citizens 
at risk. Our most obvious issue, as we learned from the World 
Trade Center attacks, and earlier from the bombing of the 
Federal building in Oklahoma City, is that sheer number of 
people who populate large cities. Higher concentrations of 
people mean more potential loss of life.
    Metropolitan areas are also more vulnerable to hazardous 
material incidents because of the industrial activity that is 
an important part of our economy. In addition, we have larger 
and more complex infrastructures. Of course, many of America's 
most visible landmarks, such as the World Trade Center and the 
Pentagon, are located in big cities. All of these increase the 
vulnerability of metropolitan areas. That is why metropolitan 
areas such as Portland are in need of increased resources to 
keep our homeland safe.
    Our needs assessment showed four primary areas where we 
need to improve--first, equipment and training. We recommend 
increasing the supply of protective equipment and training for 
all emergency responders. Decontamination at the hospitals 
would add yet another layer of protection as well. In addition, 
incident command system training at the executive level will 
enhance any major city's ability to provide leadership during a 
terrorist or any disaster.
    Second, communications. We found room to improve the 
redundancy and interoperability of our communications systems. 
While local agencies have mechanisms in place to communicate 
with each other, these plans may quickly splinter when State 
and Federal Agencies arrive on the scene. This lack of 
interoperability was starkly evident during the response to 
terrorist attack at the Pentagon on September 11.
    Third, building security. Portland, like many other cities 
in our country, is free, very open. To protect our citizens, we 
are considering enhancing our building security.
    Forth, for recovery. To improve continuity of government 
after a terrorist incident, we will develop a comprehensive 
recovery plan. First steps include a business risk assessment 
and a mainframe recovery study.
    Some ask, will the First Responder Initiative help major 
cities across this country address these types of issues? The 
answer is absolutely. But there is another strength in the 
proposed initiative. It would support programs that develop or 
buildupon existing mutual aid agreements. For example, in the 
Portland metropolitan area, a regional group of emergency 
managers involving five counties and two States has worked 
since 1993 to coordinate regional response to natural hazards. 
We are now developing a regional request for antiterrorism 
dollars.
    Finally, I would note that according to the U.S. Conference 
of Mayors, initial estimates show that local communities have 
spent more than $525 million since September 11, for added 
security, and they anticipate that these cities will spend 
about $2.2 billion in 2002 to manage a burden unforeseen before 
September 11. The need for Federal assistance is clear to these 
major cities.
    Noting that a simple and quick method for dispersing 
Federal assistance is a stated objective of the First Responder 
Initiative, I would like to recommend systems similar to the 
Community Block Grant Program. This would serve as an excellent 
model for dispersing these funds. It would allow Federal 
funding to go directly to cities with populations greater than 
50,000, and the rest would go to the States for distributions 
to jurisdictions with a population less than 50,000, and 
actually for the First Responder Initiative, an increased 
population above 50,000 for those direct grants may be 
appropriate.
    This model already exists and has been used successfully 
and extensively. It would be easy to duplicate and would avoid 
delays in getting funding to the local communities who need it 
now. It would also be important that Federal funding to local 
communities allow as much flexibility as possible. As you know, 
different communities will identify different needs, levels of 
vulnerability and solutions to these difficult problems. We are 
glad to see funding flexibility included as one of the stated 
objectives in the President's initiative.
    So Mr. Chairman and members of the committee, thank you 
again for the opportunity to provide this information about how 
major cities in the United States would benefit from 
implementation of the First Responder Initiative. This benefit 
would be immediate and long term, making us safer from 
terrorist attacks and also enhancing our everyday response 
capabilities.
    At this time, I would be happy to answer any questions you 
may have.
    Senator Jeffords. Thank you for an excellent statement, and 
we will be back with questions.
    Our third witness is Mr. Mike O'Neil, chief of the South 
Burlington Fire Department in Burlington, VT.

   STATEMENT OF MICHAEL O'NEIL, CHIEF, SOUTH BURLINGTON FIRE 
                   DEPARTMENT, BURLINGTON, VT

    Chief O'Neil. Thank you, Mr. Chairman, fellow Senators.
    Let me begin by extending greetings from the Vermont Fire 
Service. We appreciate the important discussions and 
deliberations that you are involved in. I would like to address 
the committee on a few issues that have been the subject of 
much debate in our small State, that we like to think reflects 
the ongoing national discussion.
    The focus is that the ability of our Nation's fire service 
to be properly equipped to respond to the myriad of events that 
only a few short years ago would have been as viewed as 
scenarios from a movie script. There never has been a doubt 
that the American Fire Service would be called upon to respond 
to any situation. We do it every day. We do not choose what 
types of incidents that we respond to and which ones we won't. 
I believe as a fire chief, I owe it to the firefighters who 
respond to these calls for help from our citizens to be as 
prepared and protected as is possible.
    As I sit here before you today, I know that I cannot do 
that because our communities cannot afford to provide that 
protection. The need is real. We cannot continue to send our 
firefighters out without the proper protection. We would not 
send our servicemen and--women to foreign soil ill-prepared to 
perform. Why should our front-line home security forces be any 
different?
    When the White House proposed--through the Office of 
Homeland Defense giving $3.5 billion in Federal aid to State 
and local responders, America's front-line soldiers, 
firefighters, police officers and emergency medical 
technicians--to prepare for terrorist actions, the fire service 
believed that it was going to be able to solve a longstanding 
barrier to effectiveness, the lack of adequate funding. We view 
the First Responder Initiative as extremely important in 
getting money directly to departments large and small for basic 
needs such as equipment and training, and supplying specialized 
equipment and training to larger urban departments with the 
greater possibility of terror acts exists.
    In his remarks to the National Emergency Managers 
Association, Governor Ridge voiced his strong support for first 
responders in the President's proposed budget. He feels very 
strongly that the equipment, training and exercise resources 
are needed by the Nation's first line of defense. Governor 
Ridge reiterated the Administration's position that funding 
should go directly to the States, and not to the local 
government. We would question that. Past history, at least in 
our small State, has shown that very little of those resources 
have found their way to the local level once the State has 
finished utilizing the grants to better equip the State 
responses.
    We have been told for the last 3 years that any State 
resources will not be available to us for up to several hours 
after an incident, and that we as first responders will be on 
our own for that timeframe. We did not have to have that fact 
pointed out to us. We already knew it from past experience. My 
point is, now that when State resources arrive several hours 
later, they have better, more up-to-date equipment than we as 
the first responders have, and we still are holding the line 
initially.
    The cities of Burlington and South Burlington have met with 
State officials with a number of projects including much-needed 
communications systems upgrades that focused on 
interoperability and regional responses. The projects have not 
been acted on because vital funding has gone to other State 
agencies. What funding has been left over is so small that it 
has not been sufficient to be effective. We resort to makeshift 
solutions in the field, while important funding is utilized in 
other areas.
    Recent events have demonstrated once and for all the role 
of America's fire service responding to and mitigating 
disasters, terrorist or otherwise. We are truly America's first 
line of defense against all risk hazards, including hazardous 
materials, terrorist events, emergency search and rescue, fire 
suppression and emergency medical services. We need your help.
    Last year, Congress provided $100 million in funding for 
the Assistance to Firefighters Program for fiscal year 2001. 
After announcing the grant program, FEMA received nearly 30,000 
applications for assistance, totaling about $2.9 billion. 
Because of the added responsibilities of the fire service, its 
role in response to disasters and the potential for that role 
to be expanded, funding at much higher levels is required. 
Local jurisdictions simply do not have the resources to 
independently fund the improvements to respond to the new 
challenges.
    In his State of the Union address, President Bush made a 
commitment to a sustained strategy for increased homeland 
security. The President has made clear that he considers a 
critical component of that strategy to be increased Federal 
funding for America's fire and emergency service. In order to 
ensure the full benefit of this increased funding are realized 
by the American people, we urge you and Congress to enact the 
First Responders Initiative providing funding to the fire and 
emergency services. By using these programs, Congress can 
ensure that appropriate funds quickly reach America's fire 
service, the only people in the United States who are locally 
trained, equipped and sworn to respond within minutes to all 
incidents, natural or man-made, which threaten America's 
homeland.
    Mr. Chairman, the American Fire Service has been strongly 
supportive of FEMA. The reason for this is simple. They have 
earned the support of the fire and emergency service based on a 
proven track record of providing invaluable training, equipment 
and resources to America's local first responder community, 
both on-scene at disaster sites and during ongoing planning and 
training that all responder organizations must constantly 
pursue. They clearly recognize that America's local fire 
departments are the first line of disaster response in this 
country. For this reason, we encourage Congress to utilize this 
Agency as you look toward significantly enhancing and improving 
America's readiness capabilities.
    Thank you on behalf of the American Fire Service.
    Senator Jeffords. Thank you, again, for an excellent 
statement. I am obviously familiar with much of what you talked 
about.
    Mr. Zirkle, please proceed.

   STATEMENT OF KENNETH E. ZIRKLE, PRESIDENT, UNIVERSITY OF 
                      FINDLAY, FINDLAY, OH

    Mr. Zirkle. Mr. Chairman and members of the committee, my 
name is Ken Zirkle and I am president of the University of 
Findlay in Findlay, OH. Thank you for inviting me here today. I 
have testimony which I would like to submit for the record if I 
may do so.
    Senator Jeffords. That will be admitted.
    Mr. Zirkle. I am prepared to read a short statement.
    Our university currently serves 4,000 students at the 
graduate and undergraduate levels. We offer more than 60 
academic majors. The city of Findlay, home of several major 
industries, is located in northwestern Ohio, 45 miles south of 
Toledo. One of Findlay's major industries is a national leader 
in hazardous materials clean-up. Because of its presence, we 
became aware of the increased need for environmental clean-up 
professionals and developed one of the first programs in the 
Nation for disaster response training.
    In 1986, we established our National Center of Excellence 
for Environmental Management. In so doing, we made the decision 
to offer practical education and training on environmental and 
disaster preparedness in two specific program areas. One 
program grants undergraduate and graduate degrees in 
environmental safety and health training. To date, we have more 
than 1,000 graduates. Our current enrollment includes on-line 
students in 19 States. Most of our students are employed even 
before they graduate, by corporations such as Honda, Marathon, 
Owens-Illinois, General Electric, the Ohio EPA, and the IT 
Group, which recently decontaminated the Senate Hart Building.
    Our second focus is consulting services in response 
training. We have hands-on training centers in Findlay that 
offer scenarios including rail car, tank truck, and chemical 
spills, plus confined space entry and rescue, as well as 
additional practical training simulations. Furthermore, we 
specialize in custom-designed response training programs. 
Approximately 80 percent of the training we do is provided at 
our customers' locations. People do not have to come to us. 
Rather, we go to them.
    In the past 16 years, we have trained more than 50,000 
first responder and industry professionals from across the 
United States, designing programs for such companies as Ford, 
Roadway, and CSX Transportation. We have also conducted 
training in Canada and Mexico and have translated materials 
into Spanish.
    More specific to the topic we are discussing here today, in 
June 1999, we added a third focus, the University of Findlay 
Center for Terrorism Preparedness. The Nunn-Lugar 120 cities 
program was already under way.
    We realized, however, there were underserved populations, 
especially our smaller communities, which desperately needed 
first responder training. Certainly, our foresight has served 
us well. Working in concert with Dale Shipley, director of the 
Ohio Emergency Management Agency, Ohio's Governor Taft and his 
staff, the Medical College of Ohio, the Ohio Department of 
Health, and the Fire Marshall's office, we have prepared 
firefighters and police officers, emergency, medical, hospital, 
and school personnel, city and county officials, as well as 
public health workers.
    We enable communities to develop fully integrated 
preparation, response, and recovery programs. We have conducted 
terrorism preparedness training for first responders 
nationwide--on campus, onsite, and on-line. Further, for the 
last 3 years under grants from the Public Utilities Commission 
of Ohio, we have provided eight different first responder 
programs to more than 2,000 volunteer firefighters in 70 Ohio 
cities. We have trained them on weekends and evenings--the only 
viable time to work with volunteers.
    Well before September 11, the University of Findlay was 
training first responders. How have we changed since September 
11? Here are a few examples. No. 1, the Ohio Emergency Medical 
Service Agency has asked us to spearhead a grant that will 
offer EMS providers training in domestic preparedness issues 
such as emergency response, terrorism preparedness, and 
bioterrorist response. No. 2, the Ohio Emergency Management 
Agency has asked us to develop and deliver a train-the-trainer 
curriculum for Ohio's first responders to the threat of 
terrorism. No. 3, our staff has developed a CD-ROM to prepare 
school employees in the event of terrorist attacks and other 
acts of violence. No. 4, in September, we were designated 1 of 
only 14 CDC Centers for Bioterrorism Preparedness.
    Points I would like to leave you with--Secretary Rumsfeld 
has mentioned that our mindset today is completely different 
from a year ago. Like it or not, terrorism is and will be a 
part of all of our lives. Given that terrorism is a fact in our 
lives, we must do everything possible to prevent it, yet 
prepare for it.
    In closing, as institutions of higher learning, we have a 
moral and ethical obligation to play a role, in a broader 
sense, of guaranteeing that we become a Nation of first 
responders. From community colleges to professional schools, we 
all know that terrorism response courses must be incorporated 
to educate all students preparing for any profession. The 
models exist. It is not necessary to start from square one. 
Complete eradication of terrorism is not likely, but complete 
response training is absolutely mandatory.
    Thank you.
    Senator Jeffords. Thank you.
    Let me start with you, Mr. Zirkle. It is impressive what 
you are doing and how effective you have been. How many similar 
institutions are there in this country like yours? None, I 
assume, but that is good.
    Mr. Zirkle. You are right. Good answer.
    [Laughter.]
    Senator Jeffords. Is that basically the case?
    Mr. Zirkle. That is basically the case, yes. We became 
involved, like I said, several years ago in emergency response 
training. That experience just sort of lent itself to the 
problem that we are facing today. When we started this 3 years 
ago, dealing with the terrorism, we had no idea that there was 
going to be such an event as September 11. But since it has 
happened, I guess it points out the need for this to an even 
greater degree.
    Senator Jeffords. Thank you. That is discouraging, at the 
same time, very encouraging what you do, that we do not have 
more available institutions--junior colleges or anything?
    Mr. Zirkle. I suspect that what you will see is more people 
moving into that direction. We think the model that we have 
developed and perfected over the last number of years is one 
that can be used in many other institutions, and we are 
exploring that very fact right now. As a matter of fact, we are 
working with a community college in Ohio to look at setting up 
a cooperative situation with them. We see that as sort of a 
pilot project. We think it is something that can be distributed 
across the entire country.
    Senator Jeffords. Of course, as you know, a lot of the 
universities are using the Internet and expanding their 
capacities in that regard. It is another thing that certainly 
somebody ought to look at.
    Mr. Zirkle. We are involved. We have students taking this 
program right now in 19 different States using Internet at this 
very moment. But one thing we have found out. We have the 
hands-on training scenarios at the University. We have a site 
off-campus. We have railroad cars and tank cars. We can really 
focus on almost any type of situation there.
    We have found that the people who go through that, with the 
hands-on experience, are those who remember it for the longest. 
It has the greatest impact. We think there are several steps 
that can be taken until we can get to that point for everyone, 
but I think ultimately you are going to have to have that type 
of scenario approach as well.
    Senator Jeffords. That is very helpful.
    Mr. O'Neil, can you please discuss any mutual aid 
agreements currently in place with the city of Burlington and 
other localities in Vermont? Can you discuss Vermont's State 
role in these operations?
    Chief O'Neil. Yes, there are multiple mutual aid agreements 
throughout the State, and specifically in the Chittenden County 
area. Perhaps one of the best examples I can give you is the 
city of Burlington received mutual aid from the communities 
surrounding it, such as South Burlington, Shelburne, Winooski, 
Mallets Bay, and Colchester-Center Fire Department. So that 
system works out adequately, but there again the 
interoperability question comes in where the radio systems are 
not compatible to each other, and that is something that the 
communities are working on and have worked on for the last 
couple of years.
    Senator Jeffords. What are they doing? Is the State helping 
them or coordinating it or what?
    Chief O'Neil. We have approached the State on a number of 
occasions to deal with that issue, and apparently the funding 
has not been available to move forward on that. We have 
suggested a few different scenarios to them, but as I said, the 
adequate funding is not in place at this point.
    Senator Jeffords. Well, thank you. I was able to get a 
little help to your department from the Federal grant. How 
effective has that been? How helpful?
    Chief O'Neil. That has been very effective throughout the 
State. In fact, in talking with State Senator Illuzzi a few 
weeks ago about that very issue, is that it is a great start 
and it is very well appreciated and very much needed. I think 
that if that continues to be ongoing along with this program 
and the Fire Act program, I think that the State will be able 
to bring its response level up to a need that is adequate.
    Senator Jeffords. I heard from my benefactor in that, the 
Appropriations Committee, however they said don't come back 
next year. So I just wanted to warn you.
    [Laughter.]
    Chief O'Neil. We appreciate the effort, that is for sure.
    Senator Jeffords. Yes. OK.
    Mr. Wilson, we have heard discussion of mutual aid 
agreements, and I know you are heavily involved with 
firefighters across the State of Oregon, many of whom are of 
course volunteers. Is your State currently utilizing mutual aid 
agreements? If you can, sir, would you discuss your experiences 
with them?
    Chief Wilson. Yes, Mr. Chairman. In the Portland 
metropolitan region and then across the State, we have very 
mature mutual aid agreements. The city of Portland on its 
borders has the city of Vancouver, which is in the State of 
Washington; the city of Gresham; Clackamas County Rural Fire 
Protection District; and Tualatin Valley Rural Fire Protection 
Districts. Not only do we have mature mutual aid agreements 
that have worked time and eternity, they are actually built 
into the automatic dispatch so the closest unit is dispatched 
no matter what community is paying their salary. This is all 
done free of charge on a reciprocal basis.
    Statewide, under the State Conflagration Act, certain types 
of fires, primarily in the wild land and urban interface, the 
State helps coordinate mutual aid assistance, and in fact, in 
some cases, compensates those departments that are responding 
from a great distance from their home to the fire.
    Senator Jeffords. Mr. Fogg, I am interested in the role 
that the State will play in preparing first responders. Given 
your past experience as a State emergency manager, can you 
please discuss what you see as the role of the States in 
preparing first responders? Also, can you discuss how States 
can ensure that local governments receive adequate funding 
under this initiative?
    Mr. Fogg. I guess I would start by answering the last one 
first. I think there is a very consistent track record with the 
States through the whole disaster preparedness and response 
system that State emergency management has been fair about 
distributing resources and seeing that resources get to the 
local level, and not taking a lot off the top, so to speak.
    In terms of how the role that emergency management plays in 
making sure that local first responders have what they need not 
only in equipment, but in training and in their mutual aid 
relationships and everything else, I will go back to that. This 
is not just about terrorism. It is about preparedness for all 
hazards. Emergency management looks and has a history of 
looking at the whole system--how do we put all the resources 
together to best complement and supplement each other? Instead 
of a community-by-community approach, they look at a region 
within a State; look at a statewide approach; even look at an 
inter-State approach toward getting those local first 
responders, those incident commanders--and we all know that the 
local incident commander is in charge--see that they get what 
they need, when they need it, and that they get what they asked 
for.
    There is a track record there. We have been doing this I 
think quite successfully for years. As an example, a lot of the 
training that comes through the Fire Academy has been managed 
or coordinated through the State Offices of Emergency 
Management. That training has been developed jointly between 
emergency management, fire and in some cases law enforcement 
folks to make sure that the local first responders are getting 
the training they need, and that they train together. That is a 
key issue here. It is one of the things emergency management 
brings to the table. It does not have a vested interest and it 
tries to make sure that everybody gets what they need and that 
they work together--work together, train together, and build a 
plan and a response capability together.
    Senator Jeffords. Thank you, and thank you all for that 
very helpful testimony. We always reserve the right to bludgeon 
you with questions for the mail. I would say do not stand by 
your mailbox, but anyway, we may have some more questions for 
you.
    You are the front-line people and the Nation depends upon 
you. I am confident as we finish your testimony today that 
certainly we have got a good system, but it obviously can 
improve and we all know that. Our job now is to get out there 
and improve it.
    Thank you very much for your testimony.
    [Whereupon at 4:13 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
     Statement of Hon. Christopher S. Bond, U.S. Senator from the 
                           State of Missouri
    Thank you, Mr. Chairman, for calling this important hearing on 
FEMA's First Responder Initiative.
    This hearings is critical to developing the budget priorities for 
FEMA, especially the new priorities that are central to the public 
safety concerns of the Nation as we seek to minimize the risk of 
terrorism and its consequences.
    The cowardly terrorist attacks on September 11th on the Pentagon, 
the World Trade Center and in Pennsylvania is one of the saddest days 
in the history of our Nation. However, I can personally attest that the 
spirit of the American people has never been stronger or more caring.
    Last month, I visited Ground Zero, I talked with survivors as well 
as many of the heroic men and women who continue to rebuild from our 
losses in the aftermath of this terrible tragedy. I have never been 
more touched or more proud of our Nation's ability to stand tall, and 
to stand unbowed.
    Nevertheless, we must do more to ensure that States and localities 
have the needed resources, training and equipment to respond to threats 
and acts of terrorism and the consequences of such acts.
    In response, the President is proposing to fund FEMA at an 
unprecedented $3.5 billion for fiscal year 2003 as a further down 
payment to ensure that the Nation will not be caught unaware again by a 
cowardly act of terrorism and is fully capable of responding to both 
the threat and consequence of any act of terrorism.
    These FEMA funds are targeted to States and localities and are 
intended to create a safety net of First Responders with firefighters, 
law enforcement officers and emergency medical personnel at its heart.
    Despite the response to September 11th, the current capacity of our 
communities and our First Responders vary widely across the United 
States, with even the best prepared States and localities lacking 
crucial resources and expertise. Many areas have little or no ability 
to cope or respond to a terrorist attack, especially ones that use 
weapons of mass destruction including biological or chemical toxin.
    I have met with volunteer fire departments around Missouri in the 
last few weeks and Missouri's USAR has great appreciation for interest. 
Real dedication.
    The recommended commitment of funding in the President's Budget is 
only the first step. There needs to be a comprehensive approach that 
identifies and meets State and local First Responder needs, both rural 
and urban, pursuant to Federal leadership, benchmarks and guidelines.
    As a result, the roles of the Office of Homeland Security and FEMA 
need to be articulated clearly, especially if the Administration expect 
the Congress to move the responsibility for law enforcement officers as 
First Responders from the Department of Justice to FEMA.
    We also need to address the fears of local fire departments, 
especially rural departments, that some fire departments will be 
shortchanged if FIRE Act Grant funds are merged into these First 
Responder funds and block granted to States. The FIRE Act Grants 
program works very well and I am not inclined support the removal of a 
program that is a hallmark of success.
    Finally, I will be introducing a bill that would establish clear 
authority with a funding authorization of $150 million for fiscal year 
2003 for a National Urban Search and Rescue Response System.
    The Nation currently is served by 28 Urban Search and Rescue Task 
Forces which proved to be a key resource in our Nation's ability to 
quickly respond to the tragedy of September 11th. These task forces 
currently are underfunded and underequipped, but, nonetheless, are 
committed to be the front-line soldiers for our local governments in 
responding to the worst consequences of terrorism at the local level.
    I believe we have an obligation to realize fully the capacity of 
these 28 search and rescue task forces to meet First Responder events. 
I hope you will support this legislation.
    While I understand that the Administration believes it currently 
has adequate legislative authority to meet all First Responder support 
requirements through FEMA, the truth is that the urban search and 
rescue teams have been underfunded while continuing to perform at the 
highest levels because they believe in what they do and understand the 
importance of their mission. It is time to ensure their ability to meet 
their mission as First Responders.
    Thank you.
                               __________
   Statement of Hon. Joseph M. Allbaugh, Director, Federal Emergency 
                           Management Agency
                              introduction
    Good afternoon Chairman Jeffords, Ranking Member Smith and members 
of the Committee. I am Joe Allbaugh, Director of the Federal Emergency 
Management Agency (FEMA). Thank you for the opportunity to brief you 
today on FEMA's First Responder Initiative. I am honored to appear 
before a committee that has provided so much leadership in the areas of 
mitigation and disaster response and recovery.
    FEMA is the Federal Agency responsible for coordinating our 
Nation's efforts to mitigate against, prepare for, respond to and 
recover from all hazards. Our success depends on our ability to 
organize and lead a community of local, State, and Federal agencies, 
volunteer organizations, private sector entities and the first 
responder community. We know whom to bring to the table when a disaster 
strikes in order to ensure the most effective management of the 
response and recovery effort. We provide management expertise and 
financial resources to help State and local governments when they are 
overwhelmed by disasters.
    The Federal Response Plan (FRP) forms the heart of our management 
framework and lays out the process by which interagency groups work 
together to respond as a cohesive team to all types of disasters. This 
team is made up of 26 Federal departments and agencies, and the 
American Red Cross, and is organized into 12 emergency support 
functions based on the authorities and expertise of the members and the 
needs of our counterparts at the State and local level.
    Since 1992, in all manner of horrific natural disasters like the 
Northridge Earthquake and Hurricane Floyd and also in response to the 
Oklahoma City bombing and the terrorist attacks of September 11, 2001, 
the FRP has proven to be an effective and efficient framework for 
managing all phases of disasters and emergencies. The FRP is successful 
because it builds upon existing professional disciplines, expertise, 
delivery systems, and relationships among the participating agencies. 
FEMA has strong ties to emergency management organizations--fire 
service, law enforcement and emergency medical communities--and we 
routinely plan, train, exercise, and operate together to remain 
prepared to respond and recover from all hazards.
    We learn from every disaster experience and incorporate these 
lessons wherever possible into our planning and processes to improve 
the next disaster response. For example, an assessment of the Oklahoma 
City bombing led to the creation of the FEMA Urban Search & Rescue 
teams as well as the processes for monitoring the long-term health of 
1st responders. The World Trade Center and Pentagon disaster responses 
are no different. We have learned from both. We recognize that better 
personal protective equipment is needed for our first responders. More 
training and exercises, better communications and improved 
interoperability of the equipment, and enhanced medical response 
capabilities and mutual aid agreements are also needed. I am committed 
to ensuring that those needs are met.
      meeting the challenge ahead--office of national preparedness
    Although the challenge of meeting these needs may represent an 
expansion of our duties, in many respects, FEMA's role in responding to 
terrorist attacks was identified well before September 11th. On May 8, 
2001, the President tasked me with creating the Office of National 
Preparedness (ONP) within FEMA to ``coordinate all Federal programs 
dealing with weapons of mass destruction consequence management within 
the Departments of Defense, Health and Human Services, Justice, and 
Energy, the Environmental Protection Agency, and other Federal 
agencies.'' Additionally, the ONP was directed to ``work closely with 
State and local governments to ensure their planning, training, and 
equipment needs are met.''
   onp: mission and activities in support of the office of homeland 
                                security
    Following the September 11 attacks, the President appointed 
Governor Ridge to head the newly established Office of Homeland 
Security (OHS) with the charge to ``develop and coordinate the 
implementation of a comprehensive national strategy to secure the 
United States from terrorist threats or attacks.'' In carrying out this 
activity, the OHS was tasked to ``coordinate the executive branch's 
efforts to detect, prepare for, prevent, protect against, respond to, 
and recover from terrorist attacks within the United States.'' Since 
that time, FEMA has been working closely with Governor Ridge and the 
OHS, and other agencies to identify and develop the most effective ways 
to quickly build and enhance the overall domestic capability to respond 
to terrorist attacks. In consultation with OHS, FEMA will provide 
critical support for homeland security initiatives, particularly in the 
area of local and State capability building. FEMA will also have a 
significant role supporting the development of the national strategy, 
participating in interagency forums and working groups, including the 
Homeland Security Council and Policy Coordinating Committees, and 
contributing to the interagency budget strategy and formulation 
process.
    The Office of National Preparedness' (ONP) mission is to provide 
leadership in the coordination and facilitation of all Federal efforts 
to assist State and local first responders (including fire, medical and 
law enforcement) and emergency management organizations with planning, 
training, equipment and exercises necessary to build and sustain 
capability to respond to any emergency or disaster, including a 
terrorist incident involving a weapon of mass destruction and other 
natural or manmade hazards.
    FEMA has made the following changes to support this expanded 
mission to support the Office of Homeland Security:
    <bullet> Realigned preparedness activities from the Readiness, 
Response and Recovery Directorate to ONP;
    <bullet> Realigned all training activities into the U.S. Fire 
Administration to allow greater coordination between training for 
emergency managers and training for firefighters;
    <bullet> Moved the authority for credentialing, training and 
deploying Urban Search and Rescue teams from the Readiness, Response 
and Recovery Directorate to the U.S. Fire Administration.
                            onp organization
    The ONP is organized in FEMA Headquarters under a Director 
(reporting directly to the FEMA Director) and supported by a Management 
Services Unit and four Divisions to carry out key its functions to 
coordinate and implement Federal programs and activities aimed at 
building and sustaining the national preparedness capability. The 
divisions and their functional responsibilities include the following:
    <bullet> Administration Division.--Provide financial and support 
services, and management of the grant assistance activities for local 
and State capability building efforts.
    <bullet> Program Coordination Division.--Ensure development of a 
coordinated national capability involving Federal, State, and local 
governments, to include citizen participation in the overall efforts to 
effectively deal with the consequences of terrorist acts and other 
incidents within the United States.
    <bullet> Technological Services Division.--Improve the capabilities 
of communities to manage technological hazard emergencies--whether 
accidental or intentional--and leverage this capability to enhance the 
capability for dealing with terrorist attacks.
    <bullet> Assessment and Exercise Division.--Provide guidance, 
exercises, and assessments and evaluate progress in meeting National 
goals for development of a domestic consequence management capability.
    We continue to work with all 55 States and territories and 
federally recognized Indian Tribes and Alaskan Native Villages to 
implement our current and other grant programs to assist State, Tribal 
and local government to enhance their capabilities to respond to all 
types of hazards and emergencies including chemical incidents, 
incidents involving radiological substances and natural disasters.
                       first responder initiative
    In his FY 2003 Budget proposal, the President has requested that 
FEMA receive $3.5 billion to administer a major component of the 
Homeland Security efforts--the First Responder Initiative. Grants based 
on this initiative will give the first responder community--
firefighters, police officers, and emergency medical personnel--
critically needed funds to purchase equipment, train their personnel 
and prepare for a Weapons of Mass Destruction (WMD)/terrorist incident. 
The Office of National Preparedness (ONP) within FEMA will be 
responsible for administering these First Responder grants.
    Some of the goals established by ONP for the First Responder 
Initiative are as follows: Provide States and localities with the 
proper balance of guidance and flexibility so that the funds are used 
in the local areas where they are needed most;
    <bullet> Establish a consolidated, simple, and quick method for 
disbursing Federal assistance to States and localities;
    <bullet> Foster mutual aid across the Nation so that the entire 
local, State, Federal and volunteer network can operate together 
seamlessly;
    <bullet> Create an evaluation process to make sure that all 
programs are producing results and to direct the allocation of future 
resources, and;
    <bullet> Involve all Americans in programs to make their homes, 
communities, States and Nation safer and stronger.
    In achieving these objectives, FEMA will implement a procedure 
designed to speed the flow of resources to the States and localities. 
Federal funds will then be used to support State and local governments 
in four key areas:
    <bullet> Planning.--Providing support to State and local 
governments in developing comprehensive plans to prepare for and 
respond to a terrorist incident.
    <bullet> Equipment.--Allowing State and local agencies to purchase 
a wide range of equipment needed to respond effectively to a terrorist 
attack, including better, more interoperable communications equipment.
    <bullet> Training.--Provide training to first responders to respond 
to terrorist incidents and operate in contaminated environments.
    <bullet> Exercises.--Develop a coordinated, regular exercise 
program to improve response capabilities, practice mutual aid, and 
assess operational improvements and deficiencies.
    The First Responder Initiative builds upon existing capabilities at 
the Federal, State, and local level by providing needed resources to 
improve our response capabilities and strengthen our preparedness as a 
Nation.
                the role of the u.s. fire administration
    Our Nation's firefighters will continue to bear an increasing 
portion of the burden for Homeland Defense, responding to a variety of 
emergent issues including terrorism. The U.S. Fire Administration 
(USFA) will provide the Office of National Preparedness with essential 
support through its unique focus on training programs within the 
Federal Government. These programs are included in the Agency's 
mission-related preparedness and mitigation strategies.
    In addition, the Assistance to Firefighters Grant Program remains 
an important element in supporting the most pressing needs of at-risk 
communities and fire service providers in reducing the loss of life and 
property from fire, including loss of life and injury to firefighters. 
As a result of the last year's appropriations, this Grant Program 
received $150 million that must be obligated by September 30 of the 
current fiscal year. An additional $210 million was received in the 
Emergency Supplemental that is expendable until September 30, 2003. We 
expect most of the supplemental appropriation will be obligated in 
fiscal year 2002 with almost all of the remainder obligated in the 
first quarter of fiscal year 2003. FEMA is happy to report that our on-
line application system is up and running as of this month.
    I would like to again thank the Subcommittee for all of the support 
they have given to the fire community over the last few years.
        transfer of the office for domestic preparedness to fema
    The President's budget request also seeks to consolidate our 
Nation's preparedness efforts under one Federal Agency; the President 
has requested that the Office for Domestic Preparedness (ODP) be 
transferred from the Department of Justice to FEMA. With this proposal 
the President has shown true leadership in his willingness to address a 
long-standing problem--the need for central coordination among the 
myriad of Federal programs dealing with terrorism preparedness.
    Some 40 Federal Departments and Agencies have been involved in the 
overall effort to build the national capability for preparedness and 
response to the consequences of terrorist incidents. Many of these 
activities have been primarily focused on the development or 
enhancement of Federal capabilities to deal with terrorist incidents, 
including plans, personnel and physical security upgrades, and 
specialized resources such as protection and detection technology and 
response teams. Other Federal programs and activities are focused on 
building the local and State first responder and emergency management 
capabilities, to include the provision of resources and funding to 
support planning, training, exercises and equipment acquisition.
    Various independent studies and commissions have recognized the 
problems inherent in this uncoordinated approach. Several 
recommendations by the Gilmore Commission, for example, stress the 
importance of giving States and first responders a single point of 
contact for Federal assistance for training, exercises and equipment. 
In its second report issued in December 2000, the commission found that 
the ``organization of the Federal Government's programs for combating 
terrorism is fragmented, uncoordinated, and politically 
unaccountable.''
    The Commission's third report issued seven key recommendations 
regarding State and local response capabilities. These seven 
recommendations included:
    <bullet> Consolidating Federal grant program information and 
application procedures;
    <bullet> Designing and scheduling Federal preparedness programs to 
include first responder participation; and
    <bullet> Establishing an information clearinghouse in OHS on 
Federal programs, assets, and agencies.
    These findings and recommendations have been echoed in numerous 
other Commissions and reports, by the first responder community, and by 
State and local governments. In recent testimony before the Congress, 
Chief Ray Alfred spoke on behalf of the International Association of 
Fire Chiefs. He stated: ``Some of my colleagues in the fires service 
have . . . spoken of their concerns as to the lack of a coordinated 
Federal effort, both in terms of the preparedness and support programs 
. . . and the seemingly endless Federal response capabilities that 
appear duplicative and continue to grow.''
    In the post-9-11 environment, we can ill afford to wage turf 
battles that in effect protect the inefficiencies of the status quo. We 
must instead focus on the merits of a proposal that seeks to address 
duplication, shore up gaps, eliminate confusion and reduce 
complication. As the attacks of September 11th have drawn much 
comparison to the attacks of December 7, 1941, there is a forward to a 
book about Pearl Harbor that has been brought to my attention that 
speaks of the worst-case scenario in a government's preparation and 
response:
          ``Surprise, when it happens to a government, is likely to be 
        a complicated, diffuse, bureaucratic thing. It includes neglect 
        of responsibility but also responsibility so poorly defined or 
        so ambiguously delegated that action gets lost . . .
          ``. . . It includes the contingencies that occur to no one, 
        but also those that everyone assumes somebody else is taking 
        care of. It includes straightforward procrastination, but also 
        decisions protracted by internal disagreement. It includes, in 
        addition, the inability of individual human beings to rise to 
        the occasion until they are sure it is the occasion--which is 
        usually too late,'' (Thomas Schelling, forward to Roberta 
        Wohlstetter's Pearl Harbor: Warning and Decision).
    The Office of National Preparedness looks forward to building on 
the grant-making experience accumulated by ODP. The centralization of 
terrorism preparedness efforts will enable ONP to enhance the core ODP 
activities such as exercise development, training, and equipment 
acquisition to better address the needs of homeland defense.
                             citizen corps
    In order to help Americans strengthen their communities, President 
Bush tasked FEMA with overseeing Citizen Corps. This initiative is part 
of the overall effort of Freedom Corps, whose mission is to assist 
individuals and communities with implementing Homeland Security 
Programs in their areas. Since September 11, 2001, Americans are more 
aware than ever of the threat of terrorist acts on home soil. In the 
days following the attacks we saw immediate and selfless volunteering, 
generous monetary gifts, blood donations, and an outpouring of support 
and patriotism across America. Sustaining that spirit of volunteerism 
and unity is crucial to defending the homeland.
    Citizen Corp's broad network of volunteer efforts will harness the 
power of the American people by relying on their individual skills and 
interests to prepare local communities to effectively prevent and 
respond to the threats of terrorism, crime, or any kind of disaster.
    Citizen Corps will buildupon existing crime prevention, natural 
disaster preparedness, and public health response networks. Citizen 
Corps will initially consist of participants in the following five 
programs: the Volunteers in Police Service Program; an expanded 
Neighborhood Watch Program; the Medical Reserve Corps; Community 
Emergency Response Teams (CERT), and the Terrorism Information and 
Prevention System (TIPS). FEMA has the responsibility for approving 
additional programs to be affiliated with Citizen Corps in the future.
    Finally, Citizen Corps will bring together local government, law 
enforcement, educational institutions, the private sector, faith-based 
groups and volunteers into a cohesive community resource. The Federal 
role is to provide general information, to develop training standards 
and materials, and to identify volunteer programs and initiatives that 
support the goals of the Citizen Corps.
                             moving forward
    In addition to the President's plan to provide greater assistance 
to First Responders, FEMA and ONP are currently implementing a number 
of other homeland security initiatives. We are working, for example, to 
foster intergovernmental mutual aid arrangements so that the entire 
local, State, Tribal, Federal and volunteer network can operate 
seamlessly together. ONP is in the process of establishing a national 
strategic exercise program that will ensure our first responders are as 
well trained and prepared as possible. It is also preparing a Report to 
Congress on Terrorism and Emergency Preparedness and Training that will 
include a complete accounting of these and all other Federal emergency 
and terrorism preparedness training programs and activities. In 
addition, we are continuing to use the Capability Assessment for 
Readiness (CAR) report as a means to locate gaps in preparedness, as 
well as unmet training needs. All of these activities will strengthen 
the nation's capability to respond to a terrorist incident.
                               conclusion
    Operationally, FEMA is well prepared and equipped to respond to an 
act of terrorism. Following a manmade or natural disaster FEMA will 
ensure that the Federal Government and its partners provide needed 
support to disaster victims, first responders, and local governments. I 
look forward to working with each of you on this critical matter, as it 
will require a commitment from all of us to ensure its continued 
success.
    Thank you, Mr. Chairman. I would be happy to answer any questions 
you have.
                                 ______
                                 
    Responses by Hon. Joseph Allbaugh to Additional Questions from 
                            Senator Jeffords
    Question 1. In your testimony, you note that one mission of the 
Office of National Preparedness is to assist State and local 
communities with ``planning, training, equipment and exercises 
necessary to build and sustain capability to respond to any emergency 
or disaster, including a terrorist incident involving a weapon of mass 
destruction and other natural or manmade hazard.'' Given the fact that 
children will respond differently to such emergencies or disasters than 
adults and therefore will require specialized health care, what is ONP 
doing to ensure that various planning, training and exercise activities 
are adequately preparing communities to care for children? Similarly, 
what is ONP doing to ensure that all communities have the specialized 
equipment needed to care for children following a disaster or other 
emergency?
    Response. Because State and local governments are in the best 
position to determine the needs of their citizens, FEMA provides their 
representatives with funds and technical assistance to meet those 
needs, including the needs of their youngest citizens. Many of the 
issues that children will face in a terrorism event are similar to 
those they would experience in a natural disaster, i.e. fear of the 
unknown, what to do, etc. As a result, FEMA is well prepared with 
existing materials to assist children, and can easily adapt our 
existing information to address specific terrorism threats. Immediately 
following the September 11 attack FEMA put specific information on the 
website to address children's concerns, fears and questions. FEMA 
offers information on its website geared toward young people and their 
parents so they can understand and participate in their family's and 
community's preparedness for disasters and emergencies. FEMA has 
developed two sets of curriculum materials and lesson plans on 
emergency preparedness--one set geared toward grades K-8, the other for 
grades 9-12. FEMA has the ``FEMA for Kids'' and the ``USFA Kids Page'' 
websites, which provide children an interactive opportunity to learn 
about fire and disaster preparedness and safety. Also, FEMA provides a 
range of disaster public education materials for family preparedness, 
including the following brochures: Your Family Disaster Plan, Your 
Family Disaster Supplies Kit, and Helping Children Cope with Disaster. 
These publications and curriculum materials were developed jointly by 
FEMA and the American Red Cross, as part of FEMA's Community and Family 
Preparedness program. If Congress approves the proposed First Responder 
Initiative, FEMA will administer a program of grants to States, to be 
used by States and localities for identifying and addressing their 
needs in emergency preparedness, which should and must include the 
needs of children.
    Additionally, some communities have reached out to their young 
people through the Community Emergency Response Team concept. The 
Community Emergency Response Team (CERT) program helps train people to 
be better prepared to respond to emergency situations in their 
communities. CERT members give critical support to first responders in 
emergencies, provide immediate assistance to victims, organize 
spontaneous volunteers at a disaster site, and collect disaster 
intelligence to support first responder efforts.
    Allowing someone under 18 to participate is a local decision. 
Winter Springs High School in Florida, for example, offers the training 
to high school students. CERT is a great way to address the community 
service requirements for high school students and provides students 
with useful skills. CERT also fits nicely with training given to Boy 
and Girl Scouts and the Civil Air Patrol. Over 170 communities have 
listed their program on the CERT website under the Directory of CERT 
Programs by State.
    Over the next 2 years, the CERT program aims to double the number 
of participants, with over 400,000 individuals completing the 18-plus 
hours of training. Communities in 28 States have initiated CERT 
training and additional Train-the-Trainer sessions will be held over 
the next year to expand the program throughout the United States.

    Question 2. You indicate that FEMA's oversight of the Citizen Corps 
will include efforts to develop training standards and materials for 
the Citizen Corps network. Two key programs within this network that 
will be called upon to provide medical care after an disaster or other 
emergency are the Medical Reserve Corps and the Community Emergency 
Response Teams (CERTs). Given the likelihood that children will require 
care following a disaster or other emergency, what mechanisms are in 
place to ensure that the training standards and materials the Medical 
Reserve Corps and CERTs receive will adequately prepare them to treat 
and care for children?
    Response. The Department of Health and Human Services (DHHS) will 
assist communities with coordinating and training for Medical Reserve 
Corps volunteers. This oversight will help ensure that the training and 
materials Medical Reserve Corps volunteers receive adequately prepares 
them to treat and care for all members of the community, including 
children. Medical Reserve Corps volunteers will provide additional 
manpower to augment emergency medical response teams during an 
emergency and will also play a productive role in meeting non-emergency 
but pressing public health needs of the community throughout the year.
    CERT members, generally people who do not have the medical 
background required to be a part of the Medical Reserve Corps, are 
trained in very basic medical response skills. These skills are to 
treat immediate life-threatening injuries of both adults and children. 
Team members learn how to stop bleeding, treat for shock, open airways, 
triage victims, and provide on-going care until professional help 
arrives. Some CERT members take additional training such as advanced 
first aid, cardiopulmonary resuscitation, and automatic external 
defibrillators, but this is not required.
    CERT members are told the best source of help following an 
emergency or disaster is professionally trained responders. Because 
immediate professional help may be overwhelmed due to the number of 
victims, or may be delayed due to communication or transportation 
failures, the most immediate source of help will be people in the area. 
People will try to help each other and CERT training prepares 
neighborhood and workplace teams for this role.

    Question 3. According to your testimony, one role FEMA will be 
undertaking with respect to the Citizen Corps is the development of 
general information to help local communities effectively prevent and 
respond to threats of terrorism, crime or other disasters. Knowing that 
effective response planning and preparedness efforts must specifically 
consider children's needs in times of disaster, what safeguards are in 
place to ensure that FEMA's information adequately addresses the unique 
health needs of infants, children, adolescents and young adults?
    Response. The safeguards that are in place to ensure that 
information developed by FEMA in cooperation with our partners 
addresses the unique health needs of infants, children, adolescents and 
young adults are based on two basic principles, tested and proven over 
time: (1) coordination among the range of authoritative sources of the 
expertise required to prepare for all of the ways in which each kind of 
disaster or crime can injure or kill children and youth, including 
their special vulnerabilities because of age and inexperience; and (2) 
the science, engineering and associated methods of analysis and 
evaluation that can assure the validity of data, information and the 
results that are made available to the relevant professions, families 
and caregivers as well as to the general public.
    The coordination is accomplished through administrative management 
arrangements among responsible agencies--the heart of interagency 
coordination. Second, quality control is drawn from the methods of 
scientific inquiry and analysis and the accumulated knowledge and 
expertise of those qualified to understand its application to the 
health and medical needs of infants, children, adolescents and young 
adults in emergencies and disasters--as well as the needs of mature 
adults, the elderly, those challenged by a range of permanent injuries 
and disabilities, and those whose social, geographic, economic, ethnic 
and linguistic circumstances limit their ability to get the help they 
need to prevent or deal with threats of death and injury.
    FEMA and its Federal Response Plan partners have an impressive 
array of emergency public information and disaster public education 
materials, including a number that are relevant to the young. FEMA for 
Kids, on the web at http://fema.gov/kids, is designed for children and 
for those responsible for their care and education. Most publications 
listed there are available both in print and on our websites in a form 
to be downloaded.
    Many of these are already identified and are being reviewed to 
determine needed modification to meet the needs of the War on 
Terrorism. They will also be upgraded in other ways, based on recent 
experience, research and lessons learned. Among those in FEMA's library 
of materials are the following that are pertinent to the young:
    <bullet> Helping Children Cope with Disaster (English & Spanish)
    <bullet> The Disaster Twins: The Adventures of Julia and Robbie 
(English & Spanish)
    <bullet> Jason and Robin's Awesome Hurricane Adventure (Comic book 
and video)
    <bullet> Adventures of the Disaster Dudes (video)
    <bullet> Disaster Preparedness Coloring Book (English & Spanish)
    <bullet> Your Family Disaster Plan (English & Spanish) (Includes 
information for helping children as their families form disaster 
plans.)
    <bullet> Your Family Disaster Supplies Kit (English & Spanish)
    <bullet> Are You Ready? A Guide to Citizen Preparedness
    <bullet> Family Earthquake Safety Home Hazard Hunt and Drill
    <bullet> Tremor Troop: Earth Quakes (K-3 Curriculum) and Seismic 
Sleuths (4-6 Curriculum) (These are used with a train-the-trainer 
course for teachers to take before introducing the curriculum package 
in their school systems.)
    <bullet> Multi-Hazard Program for Schools (Training course for 
school emergency planning team, adapted for school violence and 
includes possibility of terrorist event.)
    Curricula in process:
    <bullet> Risk Watch: Natural Hazards Curriculum K-8, National Fire 
Protection Association.
    <bullet> Natural Hazards. (Grades 8-12). Internet and interactive 
CD ROM under development with FEMA sponsorship at Purdue University 
Agricultural Center for 4-H and other youth programs.
    The specific safeguards include U.S. Public Health Service primacy 
and interagency clearance of information materials that are developed 
for or adapted to the health and medical consequences of terrorism. 
Participating Departments and Agencies follow the principles of 
coordination among lead and support agencies for each Emergency Support 
Function (ESF) under the Federal Response Plan (FRP) for disaster 
response and recovery, including operational guidance as well as public 
information for public health and medical care in preparedness and 
response to terrorism by government agencies at all levels. The U.S. 
Public Health Service, Department of Health and Human Services (DHHS), 
has primary responsibility to provide assistance for public health and 
medical care needs (ESF 7), and is the lead Agency for approving health 
and medical information materials that will be available through FEMA. 
One area in particular, psychological counseling for disaster trauma 
authorized as a service under disaster relief provisions of the 
Stafford Act, already includes special expertise for counseling 
children through the National Disaster Medical System, and has been 
applied to incidents of school violence as well as Presidentially 
declared major disasters.
    The lead agencies and associated organizations that will be 
actively involved in the development of emergency public information 
and disaster public education materials are the Office of Emergency 
Preparedness, Office of the Assistant Secretary for Health, and the 
Centers for Disease Control and Prevention, U.S. Department of Health 
and Human Services; Food Safety and Inspection Service, and State 
Cooperative Education and Extension Service, U.S. Department of 
Agriculture; National Weather Service, National Oceanic and Atmospheric 
Administration, U.S. Department of Commerce; U.S. Geological Survey, 
U.S. Department of the Interior; the American Red Cross; the National 
Fire Protection Association; the International Association for 
Emergency Management; and the Institute for Business and Home Safety.
    An informal, interagency National Disaster Education Coalition 
(NDEC) at the staff level has served for several years to coordinate 
updating of disaster public education materials, to coordinate 
technical input from lead agencies and reach consensus on effective 
messages for the public that are technically correct and consistent, so 
they will not confuse the public by differences in language or 
emphasis. These include some protective measures to prevent injury and 
death.
    Second, the U.S. Fire Administration, along with FEMA, chairs and 
administers the Federal Interagency Committee on Emergency Medical 
Services (FICEMS), which serves as a forum to establish and facilitate 
effective communications and coordination between and among Federal 
departments and agencies involved in activities related to EMS. Other 
participating Departments and Agencies include U.S. Department of 
Health and Human Services/Office of the Assistant Secretary for Health 
and the National Institute for Occupational Safety and Health, U.S. 
Department of Defense, Veterans Administration, U.S. Department of 
Transportation/National Highway Transportation Safety Administration, 
U.S. Department of Interior/Bureau of Land Management, Bureau of Indian 
Affairs and National Park Service, U.S. Department of State/Agency for 
International Development, U.S. Department of Justice/Office of Justice 
Programs and Federal Bureau of Investigation, and U.S. Department of 
Labor/Occupational Safety and Health Administration. FICEMS develops 
recommendations that will:
    <bullet> Strengthen the communication and coordination of Federal 
policies and programs;
    <bullet> Promote harmony and avoid duplication of efforts;
    <bullet> Promote uniformity of standards and policies consistent 
with existing Federal laws and regulations regarding EMS.
    FICEMS also maintains a liaison with national EMS trade and 
professional organizations to ensure effective two-way communications 
concerning EMS issues, committee policies and programs, and Federal 
activities related to EMS.
    FEMA was last involved in a major effort to develop appropriate 
standby public information concerning terrorism during Desert Shield 
and Desert Storm. FEMA worked with other members of the Special Working 
Group's Chemical, Biological and Radiological Research and Development 
Subgroup (CBRRDS), drawing on published U.S. military and NATO guidance 
for military personnel, and public information issued daily to the 
public on television and in the Jerusalem Post during Scud missile 
attacks and the Iraqi threat of chemical and biological agents. The 
information assembled at that time addressed incendiary and explosive 
events as well as chemical, biological and radiological weapons of mass 
destruction. Current understanding of threats and hazards from 
terrorism requires a more extensive analysis of the innovative ways in 
which terrorists might utilize the range of weapons they have employed 
or threatened to use, cyber- and agro-terrorism, as well as identifying 
potential means of terrorism not yet identified, health effects, and 
preventive and treatment information for the general public.
    As the interagency groups address the current need, they will also 
draw on sponsored research in Government scientific organizations and 
laboratories, Government-sponsored research and engineering programs in 
universities, the National Academy of Science/National Research 
Council, which have conducted disaster research for decades and have an 
illustrious history of bringing the cutting edge of science to national 
security problems, and established authorities in industrial sabotage 
and terrorism with potential for direct or intended indirect health and 
medical consequences.
                               __________
    Responses by Hon. Joseph Allbaugh to Additional Questions from 
                             Senator Smith
    Question 1. There has been some question as to whether FEMA is the 
right Agency to lead the First Responder programs, specifically as it 
relates to the relocation of the Office of Domestic Preparedness: There 
are few points that have been raised that I would like you to address:
    (1) FEMA is not a grant Agency
    (2) ODP programs are primarily law enforcement
    (3) They already have training facilities; and
    (4) Is FEMA the best option to act as the coordinating Agency
    Response. Consistent with its responsibility for consequence 
management, over the last several years FEMA has provided training as 
well as preparedness planning assistance, technical guidance, and 
exercise support to State emergency management organizations and first 
responders in the fire service, emergency medical, and law enforcement 
communities. Since 2000, FEMA has administered approximately $6.9 
billion in grants on a multitude of programs. In addition, FEMA 
regularly reimburses law enforcement agencies through grants to the 
States for their response in all-hazard disasters, particularly for 
emergency protective measures.
    FEMA's mission regarding the First Responder Initiative will be to 
provide leadership in the coordination and facilitation of this 
program. FEMA will serve as the ``single point of contact'' for State 
and local governments. Consolidating and simplifying Federal grant 
program information and application procedures was recommended by a 
number of Commissions as well as State and local agencies.
    FEMA has an established history of working with State and local 
governments and the first responder community to prepare for, mitigate 
against, and respond to natural disasters. Our core mission is to 
provide leadership and support to reduce the loss of life and property 
and to protect our Nation's institutions from all types of hazards 
through a comprehensive, risk-based, all-hazards approach. As evidenced 
in the Federal Response Plan, FEMA coordinates all facets of emergency 
management without directly ``owning'' many of the specific programs 
and activities. This permits FEMA to remain unbiased, allowing us to 
coordinate programs in the most effective manner possible.
    FEMA has experience in providing grants for both day-to-day 
preparedness and disaster recovery efforts. FEMA has particular 
experience in working with law enforcement organizations for emergency 
management functions, and regularly reimburses law enforcement agencies 
through grants to the States for their response in all-hazard 
disasters, particularly for emergency protective measures.
    Through the National Emergency Training Center in Emmitsburg, FEMA 
offers a nationwide program of instruction for emergency management 
officials through its regional offices. Most of this training is 
conducted in partnership with State emergency management offices and 
the Metro Chiefs organization. Courses include Introduction to 
Emergency Management; Emergency Planning; Developing Volunteer 
Resources; Exercise Design; Community Emergency Response Training; 
Disaster Response and Recovery Operations; Emergency Operations Center 
(EOC) Management and Operations; Strategic Considerations for Command 
Officers, among others. In many respects, FEMA has already been helping 
to coordinate the training conducted by ODP. ODP training is based on 
National Fire Protection Association standards, and ODP staff has 
established regular and recurring meetings with the National Fire 
Academy to discuss and coordinate WMD training development. In essence, 
staff currently at ODP will be performing these same functions simply 
at FEMA where the coordination already exists.
    FEMA is well qualified to coordinate First Responder assistance 
programs by virtue of our mission, capabilities, and experience. FEMA's 
statutory mission is to help States and localities prepare for 
disasters--natural or man made--by carrying out exercises, providing 
grants, and offering training and technical assistance. FEMA derives 
this authority from its primary disaster relief and assistance statute, 
the Robert T. Stafford Disaster Relief and Emergency Assistance Act, as 
amended (42 U.S.C. 5121 et. seq.).

    Question 2. Could you provide us background on where things stand 
at the Office of National Preparedness: what are the priorities, 
resource needs and timeline for developing a long-term plan and 
becoming fully operational? What is the process for the development of 
the plan?
    Response. The Office of National Preparedness' (ONP) mission is to 
provide leadership in the coordination and facilitation of all Federal 
efforts to assist State and local first responders (including fire, 
medical and law enforcement) and emergency management organizations 
with planning, training, equipment and exercises necessary to build and 
sustain capability to respond to any emergency or disaster, including a 
terrorist incident involving a weapon of mass destruction and other 
natural or manmade hazards.
    FEMA has made the following changes to support this expanded 
mission:
    <bullet> Realigned preparedness activities from the Readiness, 
Response and Recovery Directorate to ONP;
    <bullet> Realigned all training activities into the U.S. Fire 
Administration to allow greater coordination between training for 
emergency managers and training for firefighters;
    <bullet> Moved the authority for credentialing, training and 
deploying Urban Search and Rescue teams from the Readiness, Response 
and Recovery Directorate to the U.S. Fire Administration.
    The ONP is organized in FEMA Headquarters under a Director 
(reporting directly to the FEMA Director) and supported by a Management 
Services Unit and four Divisions to carry out its functions to 
coordinate and implement Federal programs and activities aimed at 
building and sustaining the national preparedness capability. The 
divisions and their functional responsibilities include the following:
    <bullet> Administration Division--Provide financial and support 
services, and management of the grant assistance activities for local 
and State capability building efforts.
    <bullet> Program Coordination Division--Ensure development of a 
coordinated national capability involving Federal, State, and local 
governments, to include citizen participation in the overall efforts to 
effectively deal with the consequences of terrorist acts and other 
incidents within the United States.
    <bullet> Technological Services Division--Improve the capabilities 
of communities to manage technological hazard emergencies--whether 
accidental or intentional--and leverage this capability to enhance the 
capability for dealing with terrorist attacks.
    <bullet> Assessment and Exercise--Provide guidance, exercise, and 
assess and evaluate progress in meeting National goals for development 
of a domestic consequence management capability.
    We continue to work with all 50 States and territories to implement 
our current and other grant programs to assist State, Tribal and local 
government to enhance their capabilities to respond to all types of 
hazards and emergencies.
                                 ______
                                 
    Responses by Hon. Joseph Allbaugh to Additional Questions from 
                           Senator Voinovich
    Question 1. When will FEMA coordinate the collection of information 
from Federal agencies like EPA and NIOSH and make a report to Congress 
and First Responder teams detailing the types and levels of exposure to 
toxins at the World Trade Center site?
    Response. This information is already being collected and analyzed 
by the New York City Department of Health and the New York State 
Department of Health and associated academic institutions, as part of a 
number of ongoing research and analysis activities being coordinated 
with the National Institute of Environmental Health Sciences (NIEHS).

    Question 2. What medical surveillance systems does FEMA currently 
have in place that will track the occurrence of adverse health 
(specifically respiratory) reactions for First Responders at Ground 
Zero?
    Response. As we watched the images of fire and smoke on September 
11 and the days that followed, FEMA immediately recognized problems 
with air quality and the potential risk to rescue worker health. FEMA 
moved quickly to assign a mission for air monitoring to the 
Environmental Protection Agency (EPA), through the Federal Response 
Plan. EPA monitoring results were reported during twice-daily 
interagency briefings. This information was conveyed to emergency teams 
in the field.
    FEMA coordinated efforts with local incident management officials 
and supporting Federal agencies, including EPA, to determine and 
specify levels of personal protective equipment needed for rescue 
workers. Appropriate levels of personnel protective equipment are 
largely based on the presence of harmful agents found during 
monitoring. A P-100 cartridge respirator was determined to provide an 
appropriate level of protection for those working at Ground Zero. FEMA 
procured, delivered and supplied this equipment onsite.
    On February 20, 2002, the Director requested the Urban Search and 
Rescue Task Force leaders to identify Task Force personnel deployed to 
the WTC, in an effort to identify those personnel who believed they may 
have a medical condition related to the event. They were instructed to 
contact FEMA's Workers' Compensation Center to record, file and if 
necessary, process health-related claims for all National Urban Search 
& Rescue workers who responded to Ground Zero and the Pentagon. When 
medical treatment is required, the Compensation Center works with the 
Department of Labor's Office of Workers Compensation Program to 
establish a case number and ensure needed medical attention. FEMA has 
surveyed all participating Task Forces to develop data on the members 
who worked these disasters, and to determine the amount of time they 
worked in the impacted areas. The Task Forces continue to submit 
information to FEMA for compilation and tracking. FEMA has also 
provided $9 million to the Public Health Service to conduct baseline 
testing of first responders. Blood samples were taken from 11,000 fire 
fighters and 4,000 New York State employees.
    Records on file will ensure future medical treatment coverage 
should that be needed. This system, as established, will allow the 
Agency to monitor the nature and extent of illnesses associated with 
US&R personnel involved in the September 11 response. FEMA is 
monitoring the US&R responder health issues and processing all workers 
compensation claims received from the Task Forces.

    Question 3. How will FEMA ensure that the funds allocated to this 
First Responder Initiative will not be used to augment the Firefighters 
Grant Program?
    Response. The two programs are fundamentally different in that the 
Assistance to Firefighters Grant Program is designed to provide basic 
assistance directly to local fire departments and the First Responder 
Program is designed to provide assistance to the local governments 
through the State for specialized WMD training and equipment. The 
Assistance to Firefighters Grant Program is currently underway. FEMA 
will be distributing the entire $360 million fiscal year 2002 
appropriation by the end of this calendar year. The Assistance to 
Firefighters Grant Program provides basic needs, including firefighting 
gear and equipment, personal protective clothing, firefighting 
vehicles, etc. The First Responder Program is far more specialized than 
the basic fire grant program. It is designed to provide WMD equipment 
and training. This is The First Responder Program will help to increase 
the level of preparedness for our first responders above and beyond 
their basic day-to-day responsibilities. While it is true that there is 
some overlap on certain protective equipment and training due to recent 
changes in the Fire Grant statute, this will be the exception rather 
than the rule.

    Question 4. What challenges exist that may prevent FEMA from 
fulfilling the mission of this Initiative? What plans are underway to 
adequately overcome these challenges?
    Response. As numerous studies have reminded us all, the Federal 
Government's efforts related to terrorism preparedness are vast and 
complex. Our major challenge is to work constantly on our 
relationships, without becoming too overwhelmed with day-to-day urgent 
actions, so that there is a cooperative and willing exchange of 
information. Without constant attention to these relationships, we will 
have difficulty exercising leadership on program implementation.
    We are working on cementing interagency coordination and 
cooperation at the level of program implementation. We have held 
monthly meetings with senior representatives of our partner agencies to 
make them aware of what we are doing, invite their comments, and 
solicit information from them on their own efforts. We have detailees 
from several agencies to ensure close day-to-day coordination, and are 
still seeking detailees from others. We are continually discovering 
efforts that can be related and made to work together. The issue of 
communications interoperability is an excellent example of this 
coordination. FEMA along with the Department of the Treasury and are 
the managing partners for the Wireless Public Safety Interoperable 
Communications Program, or Project SAFECOM for short. Project SAFECOM 
is an interagency initiative, and all Federal Government programs and 
resources currently devoted to public safety wireless communications 
interoperability are to be consolidated under this initiative. The 
objective is to eliminate duplication, improve business processes, and 
ensure the successful delivery of interoperable wireless communications 
solutions to customers at the Federal, State and local levels.

    Question 5. How will FEMA ensure that local emergency management 
infrastructures become capable of handling the significant effort 
proposed in the President's budget and have the capacity to respond to 
disasters caused by terrorists as well as natural disasters?
    Response. The Office of National Preparedness will be hosting a 
series of meetings to solicit ideas from key stakeholders, including 
law enforcement, fire service, the emergency medical community, and 
State and local emergency management directors, and congressional 
staff, and on how to develop the first responder grant process. We are 
soliciting information on State and local grant management processes 
and capabilities, as well as any potential State and local legislative, 
regulatory, or budget hurdles to effective implementation of the 
program. We also will meet with of some of our key interagency partners 
to solicit their lessons learned from similar program efforts. We will 
provide planning guidance and technical assistance to State and local 
governments on the basis of what we learn in this process. FEMA also 
has experience working with State and local governments on very large 
post-disaster grants, and we will apply relevant lessons from that 
process to the effort.
    Precisely by readying the administrative side of the emergency 
management and responder community to receive and expend the grants, we 
will be setting the stage to increase local capacity to respond to 
terrorism and other disasters. The President's First Responder 
Initiative would provide $3.5 billion in funding to support planning, 
exercises, training, and equipment--including interoperable 
communications.
    If communities are interested in receiving these funds, then the 
Federal Government can create an incentive for all facets of the State 
and local response community to converge over time into a nationwide 
response system. For example, under the First Responder Initiative, it 
is proposed that participating in a mutual aid agreement be a condition 
of eligibility. The Federal Government would thereby create an 
incentive for communities to work together Regionally to pool their 
resources and plan together: all would benefit. To underpin this 
requirement, we have to develop a common language for discussing 
capabilities. Therefore, we are working with the National Emergency 
Management Association on a resource typing initiative. Initially, this 
is to support interstate mutual aid under the Emergency Management 
Assistance Compact, of which almost every U.S. State and Territory is a 
member, but its acceptance by States should lead over time to 
widespread local acceptance. Resource typing amounts to providing 
standard definitions of certain capabilities; for example, the 
definition for a certain type of team would specify its staffing, the 
training and certification of its various personnel, what equipment it 
brings, and what its logistical or sustainment requirements are. This 
provides a common language for requesting or planning for mutual aid, 
and for surveying what capability exists in the country. It is a 
necessary foundation for effective interstate and intrastate mutual aid 
arrangements, and we are excited to be working in this area because it 
will promote true interoperability over time. Either the standard 
resource typing definitions will lead to development of specific 
standards on training and equipment specifications, or de facto 
standards will evolve naturally as more communities work together 
across jurisdictional boundaries.

    Question 6. What assistance and/or training has FEMA offered to 
First Responder teams to help them understand and process Federal 
medical claims forms and reimbursement paperwork?
    Response. On February 20, 2002, the Director requested the Urban 
Search and Rescue Task Force leaders to identify Task Force personnel 
who deployed to the WTC, in an effort to identify those personnel who 
believed they may have a medical condition related to the event. They 
were instructed to contact FEMA's Workers' Compensation Center to 
record, file and if necessary, process health-related claims for all 
National Urban Search & Rescue workers who responded to Ground Zero and 
the Pentagon. When medical treatment is required, the Compensation 
Center works with the Department of Labor's Office of Workers 
Compensation Program to establish a case number and ensure needed 
medical attention. Records on file will ensure future medical treatment 
coverage should that be needed. This system allows the Agency to 
monitor the nature and extent of illnesses associated with US&R 
personnel involved in the September 11 response. FEMA continues to 
advise, instruct and inform Urban Search and Rescue workers regarding 
this process through several communications sources including: 
briefings, memos, and a US&R Newsletter. A brochure describing the FEMA 
Workers Compensation Program was also produced and delivered to US&R 
Task Forces.
    FEMA will also provide $20 million in funding to establish a 
comprehensive health registry to track the long-term health effects of 
all people (including first responders) who were subject to exposure 
from potential toxins in the post-collapse environment surrounding the 
World Trade Center. It will be done through an interagency agreement 
with the Agency for Toxic Substance and Disease Registry (ATSDR) of the 
Department of Health and Human Services (HHS). This interagency 
agreement is expected to be approved no later than the end of June.
                                 ______
                                 
    Responses by Hon. Joseph Allbaugh to Additional Questions from 
                            Senator Clinton
    Question 1. First Responder Initiative.--Director Allbaugh, you 
described the First Responder Initiative as having four areas: 
planning, equipment, training, and exercises. As I'm sure you know, one 
of the biggest expenses for local communities is for overtime for first 
responders because of the incredible increased demands being placed on 
them for the purposes of homeland security. (ONP)
    Under the President's Initiative, would local communities be able 
to use funds for overtime expenses attributable to homeland security? 
If not, why not?
    With respect to funding getting to local communities, how will the 
Administration ensure that much-needed funds get to local communities 
quickly?
    Will all local communities: counties, cities, towns, etc. be 
eligible to receive funding?
    Who will determine what communities receive funding and in what 
amounts?
    How will the funding level for each State or locality be 
determined? If risk is involved in determining the funding level, how 
is risk defined and how would risk be measured for funding purposes?
    Response. Local communities will not be able to use the First 
Responder Initiative grants for overtime expenses attributable to 
homeland security. Overtime pay is part of an employee's salary and 
benefits package and therefore not eligible for grant funding. However, 
the funding will have a matching requirement, and in-kind matches will 
be allowable. This match can be part of the costs local governments 
have incurred paying overtime to employees who are providing coverage 
for other employees participating in exercises or training.
    Because grants will be managed by the States, FEMA will ensure that 
much-needed funds get to local communities quickly. Each State will 
submit an application for Federal assistance. FEMA will make awards, 
and the Governors will determine the allocation of funds among their 
localities. It is the intent of the program that the assistance will 
reach the local level within 30 days after the State receives its award 
from FEMA. States will follow their own laws and procedures when 
awarding and administering subgrants of financial assistance to 
localities and Indian tribal governments. All local communities will be 
eligible to receive funding.
    In fiscal year 2002, grant funds will be distributed based on 
population. In fiscal year 2003, each State will receive a base 
allocation of $5 million. The remaining funds will be distributed to 
each State based on population. States will be allowed to keep up to 25 
percent of the funds (some Governors may chose to use this share to 
address statewide interoperable communications issues and to retain and 
strengthen some emergency management capabilities at the State level), 
with at least 75 percent distributed to local jurisdictions.

    Question 2. Health Monitoring.--Director Allbaugh, in your 
testimony, you mentioned the creation of processes for monitoring the 
long-term health of first responders in response to the Oklahoma City 
bombing. As you know, this is an issue that many of my colleagues on 
this Committee and I have a significant interest in. Can you please 
tell us how these processes are being implemented in response to the 
September 11 attacks on the Pentagon and the World Trade Center?
    Response. FEMA will provide $20 million in funding to establish a 
comprehensive health registry to track the long-term health effects of 
all people (including first responders) who were subject to exposure 
from potential toxins in the post-collapse environment surrounding the 
World Trade Center. It will be done through an interagency agreement 
with the Agency for Toxic Substance and Disease Registry (ATSDR) of the 
Department of Health and Human Services (HHS). This interagency 
agreement is expected to be approved no later than the end of June.
    In addition, on February 20, 2002, the Director requested the Urban 
Search and Rescue Task Force leaders to identify Task Force personnel 
who deployed to the WTC, in an effort to identify those personnel who 
believed they may have a medical condition related to the event. They 
were instructed to contact FEMA's Workers' Compensation Center to 
record, file and if necessary, process health-related claims for all 
National Urban Search & Rescue workers who responded to Ground Zero and 
the Pentagon. When medical treatment is required, the Compensation 
Center works with the Department of Labor's Office of Workers 
Compensation Program to establish a case number and ensure needed 
medical attention. Records on file will ensure future medical treatment 
coverage should that be needed. This system allows the Agency to 
monitor the nature and extent of illnesses associated with US&R 
personnel involved in the September 11 response. FEMA continues to 
advise, instruct and inform Urban Search and Rescue workers regarding 
this process through several communications sources including: 
briefings, memos, and a US&R Newsletter. A brochure describing the FEMA 
Workers Compensation Program was also produced and delivered to US&R 
Task Forces.

    Question 3. Personal Protective Equipment.--Director Allbaugh, in 
your testimony, you discussed four key areas in which Federal funds 
will be used as part of this new First Responders Initiative to support 
State and local governments. One of these areas is the purchase of a 
wide range of equipment needed to respond effectively. As you know, in 
the case of the World Trade Center, as Dr. Kerry Kelly, Chief Medical 
Officer for the New York City Fire Department, testified at our field 
hearing in New York City last month, respirators were not available for 
all members working at the site, certainly not in the first few days. 
Dr. Kelly also testified that many firefighters also found it more 
difficult to operate while wearing respirators, which seems to indicate 
that there is a need to develop new and improved equipment. Would funds 
be made available through this new Initiative for the purchase of 
personal protective equipment (respirators, etc.), as well as for the 
development of new, more innovative equipment that meets the needs of 
first responders working in a situation such as that experienced at the 
World Trade Center?
    Response. The First Responder Initiative provides funding to allow 
State and local first responder agencies to purchase a wide range of 
equipment needed to respond effectively to a terrorist attack, 
including personal protective equipment, chemical and biological 
detection systems, and interoperable communications gear. It is 
important that States and local governments, as part of their emergency 
preparedness planning, take into account the need for readily available 
equipment. It is also important that FEMA, working with other Federal 
agencies, identify where additional equipment can be obtained and 
utilize FEMA's strong logistics program to quickly deliver the 
requested resources to the areas affected. There is a wide variety of 
respiratory protective gear currently available for first responders 
and many new innovations are coming online. While the First Responder 
Grant Program does not have specific funding for research and 
development of new protective equipment, FEMA is working with the 
National Institute for Standards and Technology, the CDC, as well as 
several technology transfer think tanks, to look at technology that has 
been developed by the military, NASA and academia that can be made 
available to the first responder community to increase their level of 
protection and comfort.

    Question 4. Emergency Preparedness at Nuclear Power Plants.--
Director Allbaugh, in your testimony, you mention providing assistance 
to State and local governments to enhance their capabilities to respond 
to all types of hazards and emergencies including incidents involving 
radiological substances. As you know, there is significant concern in 
New York regarding the Indian Point nuclear power plant in Westchester 
County, New York where I happen to live. Can you please explain what 
role FEMA is playing in ensuring emergency preparedness at Indian Point 
and all nuclear power plants in the country in the wake of 9-11, 
particularly in light of reports by President Bush and others in the 
Administration that nuclear power plants are in fact a possible 
terrorist target? How will the new initiative specifically help to 
increase security at and around our Nation's commercial power plants?
    Response. FEMA is the lead Federal Agency for planning and 
preparedness for all types of peacetime radiological emergencies. This 
includes planning and preparedness for accidents at commercial nuclear 
power plants. In accordance with a Presidential Directive and Federal 
mandates, FEMA issues policy and guidance to assist State and local 
governments in developing and implementing their radiological emergency 
response plans and procedures. Much of this guidance is developed with 
the assistance of the Federal Radiological Preparedness Coordinating 
Committee (FRPCC) and its member agencies.
    FEMA-REP-14, ``Radiological Emergency Preparedness Exercise 
Manual'' and FEMA-REP-15, ``Radiological Emergency Preparedness 
Exercise Evaluation Methodology,'' have served as the principal 
documents which FEMA uses in planning and preparing for, conducting, 
and evaluating all REP exercises. These documents have been valuable 
tools for assessing the adequacy and implementability of State and 
local governments' radiological emergency preparedness plans and 
procedures.
    FEMA-REP-14 assists State and local offsite response organizations 
in planning, preparing for, and evaluating REP exercises. Specifically, 
FEMA-REP-14 provides basic guidance relative to the interpretation and 
application of the planning standards and evaluation criteria. These 
planning standards and evaluation criteria have been restated in FEMA-
REP-14 in the form of 33 REP objectives which are to be demonstrated by 
the offsite response organizations at the REP biennial exercises. Each 
objective addresses the offsite response organization's capability to 
carry out specific radiological emergency functions such as 
communications, mobilization of emergency response personnel, dose 
assessment, protective action decisionmaking and implementation, public 
alerting and notification, evacuee monitoring and decontamination, etc.
    Similarly, FEMA-REP-15 assists FEMA and other Federal agencies in 
the uniform and consistent documentation of the performance of the 
offsite response organizations during REP exercises. REP exercises are 
designed to test the capability of offsite response organizations to 
protect the public health and safety through the implementation of 
their emergency response plans and procedures under simulated accident 
conditions. FEMA-REP-15 contains a set of 33 multi-page evaluation 
forms, one for each of the 33 REP objectives, consisting of a series of 
short questions or prompts (points of review) for each REP objective to 
facilitate the exercise evaluator's systematic collection and 
documentation of essential data and information required by FEMA and 
the Nuclear Regulatory Commission for making findings on the adequacy 
of offsite radiological emergency planning and preparedness.
    In the introduction of the First Responder Initiative, President 
Bush proposed increased funding to strengthen, build, and sustain first 
responder capabilities. With the support of Federal agencies as well as 
the States, these first responders have the ability to determine the 
success with which America handles attacks involving weapons of mass 
destruction, including radiological attacks.

    Question 5. Funds for New York City.--With congressional approval 
of the resources announced last week by the President to be included in 
the Supplemental appropriations request expected in the next week or 
two, there will be nearly $9 billion flowing through FEMA for debris 
removal, emergency construction contracts and rebuilding stemming from 
the attacks of September 11th.
    As I know you would agree from your several trips to Lower 
Manhattan over the past 6 months, these resources are tremendously 
important for New York's recovery. But as important as the availability 
of the dollars is removing the barriers that may currently exist in the 
Stafford Act to effectively using the dollars.
    I think its fair to say that the Stafford Act never imagined the 
type of act or magnitude of destruction that was thrust upon us on the 
11th of September. And, as a result, New York has incurred costs 
directly related to the attacks but that don't fall into any of the 
boxes of reimbursable activities, such as:
    Salary for city employees for the thousands of hours of straight 
time for those pulled off their regular duties to respond to the 
attacks. We now have tremendous backlogs for various administrative 
activities, sanitation services, and correctional activities, to name a 
few. For example, security guards from correctional facilities were 
pulled off their normal duties to help with security at airports, 
tunnels, and bridges. Not surprisingly, we now have backlogs.
    Response. FEMA regulations provide that the straight time salaries 
of an applicant's regular employees will not be reimbursed for their 
disaster response duty because these salaries were budgeted already. 
Overtime of these employees is reimbursable. The work that is now 
required to deal with the administrative backlog is not eligible 
disaster work. Salaries, including overtime, of employees used to 
backfill positions while primary employees were deployed to emergency 
activities are eligible for reimbursement. There are, however, some 
activities for which neither the primary employee's salary nor the 
backfill employee's salary is eligible. When the attacks occurred, 
security at airports and many other facilities was increased. While 
these expenses were caused by the event, they were not in direct 
response to the event and are therefore ineligible.
    While a great deal of additional funding may be provided to FEMA 
for expenses in New York, there have been no changes to the Stafford 
Act or specific exceptions directed by Congress at this time. 
Therefore, it is incumbent upon FEMA to administer the disaster 
assistance program in accordance with that law.

    Question 6. Full compensation for the computers, dump trucks and 
other purchases that was necessary in responding to the attacks. The 
city had to make purchases not only to replace damaged and destroyed 
equipment, but additional purchases to develop a communication 
infrastructure, to keep records, and to haul trash, to name a few. 
These are purchases that would never have been made were it not for the 
attacks.
    Response. Equipment and supplies that are purchased for the 
performance of eligible emergency response activities are generally 
eligible for reimbursement. Extensive purchases for such items have 
been approved in the WTC disaster. However, durable equipment (i.e., 
cost over $5,000 per unit) must have its salvage value at the end of 
the emergency period returned to FEMA. These recoveries are evaluated 
individually and in many cases there may be no salvage value to be 
returned.

    Question 7. As you've heard in previous hearings, there is also the 
issue of what constitutes a critical service (non-critical service 
providers must first seek assistance through SBA).
    Response. The current definition of critical services comes 
directly from the amendments to the Stafford Act made by the Disaster 
Mitigation Act of 2000 (P.L. 106-390) or from congressional guidance. 
Absent any further guidance, FEMA is not planning any changes to the 
list of facilities that are not required to apply for an SBA loan 
before requesting assistance from FEMA.
                                 ______
                                 
     Response by Hon. Joseph Allbaugh to Additional Question from 
                             Senator Warner
    Question. I applaud the President's initiative to provide critical 
resources to local police, fire and rescue personnel. We saw first-hand 
how critical local fire and police were in responding to the attack on 
the Pentagon as Arlington County was the first onsite and ultimately 
became the on-scene coordinator for all recovery efforts. Also, every 
major fire department in the metropolitan Washington area provided 
critical resources to the Pentagon facility. Many of us are very 
interested in the criteria that FEMA will use to allocate the First 
Responder grant funds. I believe we all know that many local fire and 
police departments are the only resources to protect critical Federal 
installations. The Virginia example is very telling. We know that 
Arlington County, and other local departments, are the only responders 
for major Federal installations from the Pentagon to the CIA. Elsewhere 
in Virginia, local fire and police are the first responders to major 
defense installations in the Hampton Roads area. Can you tell me to 
what degree will protecting critical Federal facilities factor into 
FEMA's criteria for this new First Responder Initiative?
    Response. The First Responder Initiative will provide assistance to 
State and local governments to enhance the homeland security response 
capabilities of America's first responders and improve our ability to 
prepare for and respond to an act of terrorism. This initiative will 
give the first responder community critically needed funds to purchase 
equipment, train and exercise their personnel, and plan; and provide 
States and localities with the flexibility they require to ensure that 
the funds are used in the local areas where they are needed most. 
Critical facilities would be a key consideration in the development of 
State and local plans, training and exercise programs as well as the 
provision of equipment.
    FEMA plans to deliver these funds through grants to States. These 
funds will be allocated to States, with each State receiving a base 
amount and additional funds supplied by means of a population-based 
formula. This funding will provide for the needs of all 50 States, the 
District of Columbia, Puerto Rico, the territories, and insular areas.
    The program will be run through, and coordinated by States. As a 
condition of receiving these grants, States will submit their own 
plans, receive plans from local jurisdictions, and allocate funding 
based on locally driven needs identified through plans and assessments. 
We believe the States are in the best position to determine first 
responder needs in relation to critical facilities that are located 
within their jurisdictions.
                               __________
  Statement of Woodbury P. Fogg, P.E. on Behalf of National Emergency 
                         Management Association
    Mr. Chairman, Ranking Member Smith and Members of the Committee:
    Thank you for the opportunity to appear before you today to offer 
comments on the proposed first responder program. My name is Woody Fogg 
and I am testifying on behalf of the National Emergency Management 
Association (NEMA). Most recently, I served as the Director of the 
Office of Emergency Management for the State of New Hampshire for the 
past 4 years. As a member of NEMA, I have served as the Co-Chair for 
NEMA's Terrorism Committee.
    NEMA's members include the directors of emergency management for 
all the States and territories, who are responsible to their Governors 
for disaster mitigation, preparedness, response and recovery. This 
includes responsibility for terrorism consequence management and 
preparedness.
    Long before September 11, 2001, NEMA had established itself as a 
leader in providing input to Congress and Federal agencies on issues of 
domestic preparedness. States have been in the forefront of preparing 
for and responding to all types of disasters, both natural and man-
made. We take an all-hazards approach to disaster preparedness and have 
integrated our domestic preparedness efforts into the proven systems we 
already use for dealing with both man-made and natural disasters. We 
also recognize clearly the value of prevention and mitigation in 
minimizing the consequences of disasters and we incorporate those 
considerations in all our efforts.
                    proposed first responder program
    In my testimony today, I'm going to make five key points about the 
proposed first responder program:
    (1) All efforts need to be coordinated through the States;
    (2) State and local governments need programs to be flexible enough 
for personnel to manage;
    (3) Standards must be developed to ensure interoperability of 
equipment, communications, and training;
    (4) Mutual aid--both intrastate and interstate--is a key component 
to capacity building; and
    (5) State and local government must be fully, directly and 
continuously involved and consulted in the development of the National 
Domestic Preparedness Strategy.
    NEMA supports Federal efforts to increase emergency management 
capacity building at the State, territory, and local level for 
personnel, planning, training, equipment, coordination, and exercising. 
A significant Federal commitment must be made to give State, 
territorial, and local governments the tools to ensure adequate 
preparedness. While States have significantly increased their 
commitment to emergency management over the last decade, States are 
struggling with budgetary issues and the increased investments 
necessary to meet new demands.
                           state coordination
    All efforts to increase emergency management capacity building must 
be coordinated through the States to ensure harmonization with the 
State emergency operations plan, ensure equitable distribution of 
resources, and to synthesize resources for intra-state and inter-state 
mutual aid. Also, the Stafford Act, which governs the way disaster 
assistance is allocated, firmly and successfully uses States and 
Governors as the managers of Federal disaster relief funds for local 
governments which are over-taxed and need assistance when disasters 
occur. States understand the need to get funding to the first 
responders and have long coordinated statewide and regionally to ensure 
adequate State assistance to local governments for emergency 
preparedness and response. There is no question that most of the $3.5 
billion proposed first responder grant funds need to get to police, 
fire fighters, emergency medical workers, and other front-line local 
responders--after all, disasters are local in nature. The health 
community must not be forgotten and must be integrated into all 
planning, training, and exercising under the State emergency operations 
plan. We can effectively ensure this by working through the States to 
build on the needs identified in the plans that FEMA, the Department of 
Justice, and other agencies have required statewide. Further, because 
this is a national emergency and States are in difficult fiscal 
situations, we must we wary of programs that would require significant 
matches. If a significant match is required, the application of this 
initiative will only go to those agencies and governments that can 
fiscally afford the match and not necessarily where the need is 
greatest.
            flexibility for personnel to manage the program
    State emergency managers need to have a commitment for sustained 
Federal resources and the flexibility to insure the hiring and training 
of sufficient professional personnel to manage the expanding 
antiterrorism programs. We are concerned that an influx of funding 
programs from the Federal Government could detract from our ``all 
hazards'' approach and we will have to turn our focus away from natural 
disaster preparedness and response and thereby actually reduce overall 
preparedness and efficiency. Building a statewide (local, State and 
interstate) emergency management capability is key to ensuring 
preparedness across the board. Flexibility to use some of the first 
responder grants for personnel both at the State and local level to 
manage the programs is critical to completing the preparedness mission.
    NEMA has long advocated an increase in the only flexible source of 
Federal emergency management funding, the Emergency Management 
Performance Grant (EMPG). EMPG is the only line item in the FEMA budget 
that has not received an increase in the last decade, yet it is the 
only consistent source of Federal funding for State and local capacity 
building. As an existing funding stream, EMPG could be used to hire 
State and local staff to manage critical programs and build the 
incremental emergency management capacity to prepare for the first 
responder grants and the coordination that will be required execute the 
program.
    State and local government emergency management is over-stressed 
and working to capacity to address the new environment. We need relief 
now, and in that vein we are requesting an additional $200 million in 
funding for EMPG in the April supplemental appropriations package. In 
2000, a NEMA survey of the States revealed a $123 million shortfall in 
Federal funding of State and local emergency management programs. These 
funds will be a down payment for addressing the needs of emergency 
management.
                               standards
    Standards must be developed to ensure interoperability of 
equipment, communications, and training across State, regional, and 
local jurisdictions. In terms of establishing voluntary minimum 
standards for the terrorism preparedness programs of State and local 
governments, NEMA offers itself as a resource in this area. Our 
organization, along with other stakeholder groups such as the Federal 
Emergency Management Agency, the International Association of Emergency 
Managers, National Governors' Association, National League of Cities, 
International Association of Fire Chiefs, and others, has developed and 
is implementing an Emergency Management Accreditation Program (EMAP). 
EMAP is a voluntary standards and accreditation program for State and 
local emergency management that is based on NFPA (National Fire 
Protection Association) 1600 Standard for Disaster/Emergency Management 
and Business Continuity Operations (an ANSI or American National 
Standards Institute approved standard) and FEMA's Capability Assessment 
of Readiness (CAR). Consequence management preparedness, response and 
recovery standards are being developed in conjunction with those for 
the traditional emergency management functions. NEMA suggests that 
these standards already being collaboratively developed through EMAP be 
considered in the development of minimum standards for training, 
exercises and equipment. Additionally, EMAP acceptance would provide 
the natural mechanism for Federal and State agencies to meet the 
requirements of the Government Performance Results Act (GPRA). EMAP has 
already completed a pilot phase in North Carolina and North Dakota and 
will begin receiving State program applications in April. Local pilots 
will begin this spring.
                               mutual aid
    Mutual aid is a key to capacity building. A proven system we need 
to take advantage of for all domestic preparedness planning is the 
Emergency Management Assistance Compact (EMAC). EMAC is an interstate 
mutual aid agreement that allows States to assist one another in 
responding to all kinds of natural and man-made disasters. EMAC offers 
a quick and easy way for States to send personnel and equipment to help 
disaster relief efforts in other States. There are times when State and 
local resources are overwhelmed and Federal assistance is inadequate, 
inappropriate, too far away or unavailable. Out-of-state aid through 
EMAC helps fill such shortfalls. There are 46 States and two 
territories that are members of EMAC and other States and territories 
are considering joining. In response to 9-11, emergency managers from 
several States provided technical assistance and personnel support to 
New York through EMAC. A system like this enables experts and 
specialized equipment to be used across jurisdictions and regions based 
on the nature of a particular event. NEMA and FEMA are currently 
working together to standardize resource typing. By having commonly 
understood descriptions of resource packages, impacted jurisdictions 
will know just what they are going to get when they request each 
standard package.
                national domestic preparedness strategy
    NEMA has long requested for Congress to put in place an inclusive 
national framework for developing a National Domestic Preparedness 
Strategy and a single point of contact within the Federal Government 
that is accountable to Congress to coordinate the Federal efforts in 
implementation of that strategy. Please also note that we espouse a 
collaboratively developed national strategy, not just a Federal one. We 
now look forward to working with the Office of Homeland Security toward 
the development and implementation of that strategy. In addition to 
NEMA's ``Ten Principles for a National Domestic Preparedness Strategy'' 
adopted in 2000, we also developed a White Paper on Domestic 
Preparedness in the aftermath of 9-11 that is also supported by the 
Adjutants General Association of the United States, the Council of 
State Governments, International Association of Emergency Managers, and 
the National Guard Association of the United States. A copy of this 
White Paper is attached, along with NEMA's ``Ten Principles''.
    In any way possible, the Federal Government needs to coordinate 
efforts for domestic preparedness and avoid duplication of efforts and 
programs. We hope that State emergency managers and first responders 
from the State and local level will be invited to participate in 
development of the national preparedness strategy.
                               conclusion
    Close coordination in the building of overall capacity to deal with 
truly catastrophic events is the key to success in assuring our 
Nation's preparedness against terrorism. One point that I would like to 
make is that one of the best demonstrations of the need for better 
Federal, State, private and local coordination on a regional basis was 
the TOPOFF exercise in 2000. TOPOFF was a congressionally mandated 
``no-notice'' national exercise that was designed to assess the 
Nation's crisis and consequence management capabilities by exercising 
the plans, policies, procedures, systems and facilities through 
Federal, State and local responses to a challenging series of ``no-
notice'', integrated, geographically dispersed terrorist threats and 
acts. Clearly, one of the biggest issues was the question of who was in 
charge of the scene. This held true in all of the venues--Portsmouth, 
Denver and Washington, DC. We need to ensure that those valuable 
Federal, State, local, and private relationships and trust are built 
and exercised before a disaster. TOPOFF was a valuable learning 
experience and we look forward to TOPOFF II, as well as a continuing 
series of regional and national exercises to continually refine and 
improve the system. Plans are nothing without exercises to assess and 
develop their effectiveness.
    There is a tested and proven ``All Hazards'' emergency preparedness 
and response system in place which integrates Federal. Federal, State, 
local, and private organizations. We need to buildupon and enhance that 
system, not create a new one. States must continue to serve as the 
bridge between the Federal Government and the first responders at the 
local level in order to most effectively coordinate the Nation's 
catastrophic response capabilities. Domestic preparedness funding 
programs must be structured to allow local and State emergency managers 
the flexibility to hire personnel needed to effectively carry out these 
programs. Equipment and training alone will not meet the goal.
    NEMA asks Congress' help in ensuring State and local emergency 
management is fully and effectively represented in the development of 
the national domestic preparedness strategy. Thank you for your 
commitment to ensuring our Nation is as ready as we can be.
[GRAPHIC] [TIFF OMITTED] 83688.001

[GRAPHIC] [TIFF OMITTED] 83688.002

[GRAPHIC] [TIFF OMITTED] 83688.003

[GRAPHIC] [TIFF OMITTED] 83688.004

[GRAPHIC] [TIFF OMITTED] 83688.005

      Statement of Edward Wilson, Fire Chief, City of Portland, OR
    Mr. Chairman and Members of the Committee, I'm Ed Wilson, fire 
chief for the city of Portland, OR. Thank you for the opportunity to 
address the Committee.
    Two weeks after the 9-11 attacks on our Nation, City of Portland 
Mayor, Vera Katz directed me to join with our partners in public safety 
in our region, to determine our state of preparedness for a terrorist 
attack, and conduct a needs assessment. On behalf of all emergency 
responders in major cities across the United States, who undoubtedly 
undertook similar processes, I am here to testify about our findings 
and briefly outline what we would do with additional funding to 
increase our readiness.
    Like many large cities, we are on the right track with regards to 
planning for a mass casualty incident, and have been for many years. 
Most large cities have functional plans in place, and well-trained 
responders on all levels. I can say from personal experience that, in 
Portland, we have also developed a phenomenal network of relationships 
to facilitate a coordinated effort when we will need it most.
    Many large cities take an all-hazard plan approach, which includes 
hazardous materials incidents, natural disasters such as earthquakes 
and hurricanes, and of course, terrorism and weapons of mass 
destruction. It doesn't really matter what causes the emergency; the 
response to help citizens is very much the same.
    Since 9-11, however, we have focused on a few key areas to improve 
our plans in case the unthinkable happens . . . a terrorist attack in 
our hometown.
    As large cities in the United States, we have numerous factors that 
put our citizens at risk. A most obvious issue, as we learned from the 
World Trade Center attacks, and earlier from the bombing of the Federal 
Building in Oklahoma City, is the sheer number of people who populate 
large cities. Higher concentrations of people means more potential loss 
of life.
    Metropolitan areas are also more vulnerable to hazardous materials 
incidents because of the industrial activity that is an important part 
of our economy.
    In addition, we have larger and more complex infrastructures, such 
as huge water systems, extensive communication networks, bridges, and 
tall buildings. And of course many of America's most visible landmarks, 
such as the World Trade Center and the Pentagon, are located in big 
cities. All of these increase the vulnerability of metropolitan areas.
    That's why metropolitan areas such as Portland are in need of 
increased resources to keep our homeland safe. As I mentioned, Portland 
Fire & Rescue worked with our regional partners in public safety to 
determine where we stand in terrorism preparedness. I'm sure our 
findings are very similar to what other major cities are experiencing. 
We found four areas where we can improve:
    1. Equipment and Training.--We recommend increasing the supply of 
protective equipment for all emergency responders, including law 
enforcement personnel. Decontamination equipment at the hospitals would 
add another layer of protection as well. In addition, Incident Command 
System Training at the executive level will enhance any major city's 
ability to provide leadership during a terrorist or any disaster 
incident.
    2. Communication.--We found room to improve the redundancy and the 
interoperability of our communication systems. While local agencies 
have mechanisms in place to communicate with each other, these plans 
may quickly splinter when State and Federal agencies arrive on the 
scene. This lack of interoperability was starkly evident during the 
response to the terrorist attack at the Pentagon on September 11th.
    Information dissemination is another significant communication 
issue that we need to address. Clear, timely, and accurate information 
needs to flow from the Federal Government to the States, counties, and 
local governments. Relevant information needs to be shared with first 
responders such as Fire and Emergency Medical Service and with others 
such as public works and emergency managers.
    3. Building Security.--Portland, like many other cities in this 
free country of ours, is very open. To protect our citizens, we are 
considering enhancing security in our buildings, by adding systems that 
can be accelerated as needed.
    4. Recovery.--To improve continuity of government after a terrorist 
incident, we will develop a comprehensive recovery plan. First steps 
include a business risk assessment and a mainframe recovery study.
    Will the First Responder Initiative help major cities across the 
country address these types of issues? Absolutely. But there's another 
strength in the proposed Initiative. It would support programs that 
develop or buildupon existing mutual aid agreements. For example, in 
the Portland metropolitan area, a regional group of emergency managers, 
involving five counties and two States, has worked since 1993 to 
coordinate regional response to natural hazards. We are now developing 
a regional request for antiterrorism dollars.
    We recently conducted a tabletop exercise to test our newly 
developed Metropolitan Medical Response System. It was a successful 
test drive of a federally funded plan, which will help emergency 
responders coordinate with local hospitals and public health in the 
event of a biological emergency. Ours is the first Metropolitan Medical 
Response Plan in the Nation to have all of the 18 hospitals in the 
region participate.
    One of our significant findings is that hospitals, as an extremely 
important resource in an actual mass casualty incident, would benefit 
from additional decontamination equipment. Finally, I would note that 
according to the U.S. Conference of Mayors, initial estimates show that 
local communities have spent more than $525 million since 9-11 for 
added security. Moreover, they anticipate that these cities will spend 
about $2.2 billion in 2002 to manage a burden unforeseen before 9-11. 
The need for Federal assistance is clear.
    Noting that a ``simple and quick method for dispersing Federal 
assistance'' is a stated objective of the First Responder Initiative, I 
would like to recommend a system similar to the Community Development 
Block Grant Program. This would serve as an excellent model for 
dispersing these funds. It would allow Federal funding to go directly 
to cities with a population greater than 50,000. The remaining funding 
would go directly to the States for distribution to jurisdictions with 
a population less than 50,000. This model already exists and has been 
used successfully and extensively. It would be easy to duplicate, and 
would avoid unnecessary delays in getting funding to local communities 
who need it now.
    It will also be important that Federal funding to local communities 
allow as much flexibility as possible. As you know, different 
communities will identify different needs, levels of vulnerability, and 
solutions to these difficult problems. As a result, each community will 
need as much latitude as possible to achieve those solutions. We are 
glad to see funding flexibility included as one of the stated 
objectives of the President's initiative.
    Mr. Chairman and Members of the Committee, thank you again for the 
opportunity to provide this information about how major cities in the 
United States would benefit from implementation of the First Responder 
Initiative. Its benefits would be immediate and long-term, making us 
safer from terrorist attacks and also enhancing our everyday response 
capabilities. In these tough economic times, we're all working together 
to maximize resources. At the same time, we have new issues to address 
in our changed world. It's my hope we can succeed at both to keep our 
country safe and livable. I will be happy to answer any questions that 
you may have.
                                 ______
                                 
      Responses of Edward A. Wilson to Additional Questions from 
                            Senator Clinton
    Question 1. Lack of Redundancy.--Many large metropolitan areas 
around the country have ``consolidated'' their public safety (police, 
fire and medical) and public service (public works--roads, water and 
etc.) voice and data wireless systems on one ``single network'' to 
lower construction and operating costs.
    The city of Portland, Oregon designed and constructed a regional 
800 MHz trunked radio and wireless data system to support city and 
county communications. Normally, the infrastructure and employees that 
maintain and support these complex systems are also co-located at 911 
public safety answering points (PSAP). In the case of the city, all of 
our local government wireless, telephone and data communications are 
housed in one single ``target'' facility--all of our eggs are in one 
basket. The original funding for these communications systems did not 
support 100 percent redundancy and communications site diversification 
normally found in a military grade system design.
    Response. Fund and support redundant mission critical communication 
systems that will allow the city of Portland, and the numerous agencies 
that share the communications infrastructure, to continue to 
communicate in the event the Portland Communications Center is 
destroyed.

    Question 2a. Lack of Interoperability.--One of the benefits of a 
consolidated wireless network is the ability of the public safety and 
public service agencies that share a system to communicate directly 
with one another. Unfortunately due to the high cost of the Motorola 
proprietary mobiles and portables, not all public safety and public 
service agencies in the region have the necessary number of talkgroups 
on their two-way mobile and portable radios to facilitate 
interoperability communications.
    Response. Replace and upgrade mobile and portable radios to allow 
for expanded interoperability communications.

    Question 2b. The Portland metropolitan area public safety and 
public service responders use ``like'' Motorola 800 MHz voice and data 
networks, however, a majority of the responders outside of Portland and 
throughout the State of Oregon are still on VHF and UHF conventional 
radio systems. In the event of a major disaster, communications with 
the rest of the State, Southwest Washington and agencies from outside 
the area will be a serious problem.
    Response. Statewide military grade 143/700/800 MHz single 
interoperability radio network to support all local and State public 
safety/public service wireless communications. This network must have 
wide-area cellular class coverage to support portable low power 
communications devices required by public safety.
    The lack of interoperability between systems used by local, State 
and Federal police, firefighters and medical personnel makes it 
difficult to coordinate resources at the scene of large scale 
emergencies whether they be natural disasters or terrorist acts. A 
national plan for public safety communications is needed. Public safety 
should have networks that are robust (and include voice, data and 
dispatch), secure, interoperable, interconnected, accessible, 
affordable and spectrum efficient.
                               __________
   Statement of Michael E. O'Neil, Chief Engineer, South Burlington 
                            Fire Department
    Mr. Chairman, Let me begin by extending greetings from the Vermont 
fire service. We appreciate the important discussions and deliberations 
that you are involved in. I would like to address this committee on a 
few issues that have been the subject of much debate in our small State 
that we like to think reflects the ongoing national discussion. The 
focus is the ability of our Nations fire service to be properly 
equipped to respond to the myriad of events that only a few short years 
ago would be viewed as scenarios from a movie script. There never has 
been a doubt that the American Fire Service would be called on to 
respond to any situation. We do it every day. We do not choose what 
types of incidents that we will respond to and which ones we won't. I 
believe, as a Fire Chief, I owe it to the firefighters who respond to 
calls for help from our citizens, to be as prepared and protected as is 
possible. As I sit here before you today, I know that I cannot do that 
because our communities cannot afford to provide that protection. The 
need is real. We cannot continue to send our firefighters out without 
the proper protection. We would not send our servicemen and women to 
foreign soil ill prepared to perform, why should our front-line home 
security forces be any different.
    When the White House proposed through the Office of Homeland 
Defense, giving $3.5 billion in Federal aid to State and local first-
responders, America's front-line soldiers--firefighters, police 
officers, emergency medical technicians to prepare for terrorist 
actions the fire service believed that it was going to be able to solve 
a long standing barrier to effectiveness . . . . lack of adequate 
funding.
    We view the First Responder Initiative as extremely important in 
getting money directly to departments large and small for basic needs 
such as equipment and training, and supplying specialized equipment and 
training to larger urban departments where the greater possibility of 
terrorist acts exists.
    In his remarks on Tuesday morning at the National Emergency 
Managers Association Conference, Governor Ridge voiced his strong 
support for first responders in the President's proposed budget. He 
feels very strongly that equipment, training, exercises, and resources 
are needed by the Nations first line of defense. However, Governor 
Ridge reiterated the Administration's position that funding should go 
to the States and not directly to local government. We respectfully 
disagree. Past history, at least in Vermont has been that when the 
State is finished utilizing grant funds to better equip State 
resources, very little has found it's way to the local level. We have 
been told for the last 3 years that any State resources won't be 
available for up to several hours after an incident and that we as 
first responders will be on our own for that timeframe. We did not have 
to have this fact pointed out to us, we already knew that from past 
experience. My point is that now when the State resources arrive 
several hours later they have better, more up to date equipment and we 
as the first responders have not received any equipment. The Cities of 
Burlington and South Burlington have met with State officials with a 
number of projects, including much needed communication system upgrades 
that focused on inter-operability and regional responses. The projects 
have not been acted on because vital funding has gone to other State 
agencies. What funding has been left over is so small that it has not 
been sufficient to be effective. We resort to makeshift solutions in 
the field while important funding is utilized in other areas. I can 
find no better illustration of this situation than this: The staff of 
the State medical examiners office are better protected than are the 
men and women who respond every day to protect Vermont citizens from 
whatever crisis unfolds.
    Recent events have demonstrated once and for all the role of 
America's fire service in responding to and mitigating disasters, 
terrorist or otherwise. We truly are America's first line of defense 
against all risk hazards, including hazardous materials, terrorist 
events, emergency search and rescue, fire suppression and emergency 
medical services. And now, we need your help.
    Last year, Congress provided $100 million in funding for the 
Assistance to Firefighters program for fiscal year 2001. However, after 
announcing the grant program, FEMA received nearly 30,000 applications 
for assistance totaling about $2.9 billion. Because of the added 
responsibilities of the fire service, its role in response to 
disasters, and the potential for that role to be expanded, funding at 
much higher levels is required. Local jurisdictions simply do not have 
the resources to independently fund the improvements to respond to new 
challenges.
    The number of grant applications for the Assistance to Firefighters 
program has demonstrated the need for fire service funding for 
equipment, training, fire prevention, and apparatus. Enactment of the 
First Responders Initiative, beginning in 2002, can help to ensure that 
fire departments are prepared for a higher scale and scope of 
incidents. First, the Initiative can provide funding for significantly 
higher levels of training in mass casualty events, tactical command and 
control, fire fighter safety, and managing chemical, biological and 
other potential events. Second, fire fighters and fire department 
leaders must be trained and equipped to provide comprehensive response 
and support to Federal disaster response teams. Responses to incidents 
will come first from the local and regional levels before Federal 
support is available and those responders must accomplish evacuation, 
containment, mitigation, and other immediate functions prior to the 
arrival of outside assistance. More importantly, the local responders 
must ensure that their actions are consistent with contemporary 
professional standards so as not to exacerbate the problem.
    Additional funding to support increased fire service staffing is 
necessary to ensure that enough fire fighters are available to protect 
U.S. citizen immediately after a significant incident occurs. Fire 
departments require Federal support to fund additional fire fighters. 
During terrorist events, the military and other Federal personnel are 
committed to other activities thereby requiring local areas to be much 
more dependent on local fire service. Relying more on local resources 
when outside resources are scarce means that communities have few 
options other than the local fire department. Unfortunately, many fire 
department operating budgets have been reduced during the last decade 
because fires have decreased. These reductions have been without regard 
to requirements to respond to other missions. An increase in staffing 
will allow the fire service to respond to an expanding list of 
responsibilities more safely and more effectively, including homeland 
security issues.
    Limited staffing reduces a fire department's ability to respond to 
a terrorist event where resources are needed quickly and in quantity. 
Early intervention in a terrorist event can influence the number of 
lives saved in the early moments after an attack. Response to attacks 
and arrival by the fire service will occur within three to 5 minutes 
after an incident takes place and remain until the incident is 
resolved. No other consequence management resource can respond this 
quickly.
    In his State of the Union address, President Bush made a commitment 
to a sustained strategy for increased homeland security. The President 
has made clear that he considers a critical component of this strategy 
to be increased Federal funding for America's fire and emergency 
service. In order to ensure that the full benefits of this increased 
funding are realized by the American people, we urge you and Congress 
to enact the First Responders Initiative to provide funding for the 
fire and emergency services. The mechanisms to get necessary resources 
to local responders are in place. Let's use them. By using this 
existing program, Congress can ensure that appropriated funds quickly 
reach America's fire service, only people in the United States who are 
situated locally and trained, equipped, and sworn to respond within 
minutes to all incidents, natural or man-made, which threaten the 
American homeland.
    In 1997, the Departments of Defense and Justice began training and 
equipping local firefighters and police to deal with incidents of 
terrorism involving weapons of mass destruction. Similar programs have 
since been authorized by Congress, bringing the Department of Health 
and Human Services, FEMA, and other Federal agencies into the effort. 
Without doubt we have made progress, but preparedness efforts need to 
be more clearly focused.
    Mr. Chairman, the American Fire Service has been strongly 
supportive of FEMA. The reason for this is simple. They have earned the 
support of the fire and emergency service based on a proven track 
record of providing invaluable training, equipment, and resources to 
America's local ``first responder'' community both on scene and 
disaster sites and during the ongoing planning and training that all 
responder organizations must constantly pursue. They clearly recognize 
that America's local fire departments are the first line of disaster 
response in this country.
    It is for this reason that we encourage Congress to utilize this 
Agency as you look to significantly enhance and improve America's 
readiness capabilities President Bush has budgeted an unprecedented 
amount of Federal support for America's ``first responders'' in the 
name of homeland security. We strongly urge Congress to utilize 
existing formats, specifically the Assistance to Firefighters grant 
program administered by FEMA, to ensure that these funds are quickly 
disbursed to the local responders who will use them efficiently and 
effectively to provide for the security of the American homeland.
    Thank you Senators on behalf of the American Fire Service.
                               __________
Statement of Kenneth Zirkle, President, University of Findlay, Findlay, 
                                   OH
    Mr. Chairman and members of the committee, my name is Ken Zirkle 
and I am President of the University of Findlay in Findlay, OH. Thank 
you for inviting me here to present my testimony today. I have 
testimony to submit for the record, if I may do so, and I am prepared 
to read a short statement. The University currently serves more than 
4,000 students both at the graduate and undergraduate levels in 60 plus 
majors. The city of Findlay is located in northwestern Ohio on the 1-75 
corridor, 45 miles south of Toledo. Shortly after the college was 
established in 1882, the city experienced a gas, and then an oil boom, 
thus entering the American industrial revolution with gusto. Industries 
flocked to Findlay, but by the turn of the century, the wells began to 
dry up, and some of those industries moved on to other boom towns, 
leaving behind, in some cases, waste, hazardous materials, and chemical 
spills to be dealt with by later generations. Findlay was 
representative of many communities throughout the United States which 
inherited, and yet continued to create, environmental, safety, and 
health-threatening situations before regulations in late twentieth 
century began to track accountability.
    Aware of the need for response training and clean-up, the 
University of Findlay developed one of the first programs in the Nation 
to prepare environmental clean-up professionals. In 1986, we 
established our National Center of Excellence for Environmental 
Management. We made a strategic, conscientious decision to offer hands-
on, practical education, training, and information transfer services on 
environmental, safety, health, and disaster preparedness issues to 
public and private sector clients, both nationally and internally. We 
concentrated on two specific program areas: Environmental Safety and 
Health Academic Degrees and Environmental Safety and Health Training 
and Consulting Services.
    The first program grants undergraduate and graduate degrees in 
Environmental Safety and Health Training. To date we have more than 
1000 graduates. Our current enrollment includes on-line students in 19 
States. Most of our students are employed before they graduate by 
corporations such as Honda, Marathon, Owens Illinois, General Electric, 
the Ohio EPA, and the IT Group, which recently decontaminated the 
Senate Hart building.
    Our second focus is Environmental Safety and Health Training and 
Consulting Services. We have extensive hands-on training centers in 
Findlay that offer scenarios including rail car, tank truck, ditch/
stream spills, confined space entry and rescue, and additional 
practical based training scenarios. Furthermore, we specialize in 
custom designed training programs, offering them at the first 
responders' locations using their own available equipment for their 
response training. Approximately 80 percent of the training we do is 
conducted in this manner. People don't have to come to us--rather, we 
go to them. In the past 16 years we have trained more than 50,000 first 
responders and industry professionals from across the United States, 
designing programs for Ford, Roadway, and CSX Transportation. We have 
also conducted training in Canada and Mexico and have translated 
materials in Spanish.
    Recognizing and understanding that the ``real'' first responders 
are those who happen to be alongside incapacitated victims immediately 
at the site of the disaster before emergency personnel arrives, we know 
that a major thrust of preparedness must be toward the work force. 
Lives are saved in the first minutes by those onsite who have been 
trained to respond appropriately.
    It is, frankly, heinous, but fortunate, that almost 4 years ago, 
anticipating the inevitable, our staff felt compelled to include 
terrorism preparedness as our third major focus. In June 1999, we 
established the University of Findlay's Center for Terrorism 
Preparedness. At this time the ``Nunn-Lugar-Domenici 120 Cities'' 
program was underway, but we knew that there were many underserved 
populations, particularly the smaller communities, that desperately 
needed first responder training as well. Our objective, from the 
outset, was to offer an all hazards, integrated approach to terrorism 
response training and education programs.
    Our foresight has served us well. Working in concert with Dale 
Shipley, Director of the Ohio Emergency Management Agency, Ohio's 
Governor Taft and his staff, The Medical College of Ohio, the Ohio 
Department of Health, and the Fire Marshall's Office, to name a few, we 
have developed programs that prepare firefighters, police officers, 
emergency, medical, hospital, and school personnel, city/county 
officials, and public health workers to respond to terrorism incidents 
as well as nuclear, chemical, biological, explosive, and even natural 
disasters. We have trained first responders in communities across the 
United States on campus, onsite, and on line to develop fully 
integrated preparation, response, and recovery programs that can 
effectively and efficiently combat the terrorism threat to our society.
    Further, for the last 3 years, under grants from the Public 
Utilities Commission of Ohio, we have provided 8 different first 
responder courses to more than 2000 volunteer firefighters in 70 cities 
on weekends and evenings, the only viable time to work with volunteers.
    Well before September 11, the University of Findlay was preparing 
for terrorism and preparing responders. How have we changed since 
September 11? We knew we were on the right track; now we know that it's 
also a fast track! Our services and our expertise are constantly being 
sought out. Three examples:
    (1) the State of Ohio Emergency Medical Services Agency has asked 
us to spearhead a grant that will offer EMS providers, state-wide, 
training in domestic preparedness issues such as emergency response, 
terrorism preparedness, and bio-terrorist response;
    (2) the Ohio Emergency Management Agency has asked us to ``develop 
and deliver a Train-the-Trainer curriculum for Ohio's first responders 
to the threat of terrorism;''
    (3) our staff has developed an interactive CD-ROM to prepare school 
employees in the event of terrorist attacks and other acts of violence.
    In October we were designated a Center for Public Health 
Preparedness for Bioterrorism and Emerging Health Threats by the 
Centers for Disease Control.
    Indeed, we are providing what we believe to be a vital cog in our 
nation's machine of terrorism preparedness, or to use Governor Ridge's 
term, ``consequence management.''
    Points I'd like to leave you with:
    First, as Secretary Rumsfeld has often mentioned, our mindset today 
is completely different from a year ago. Like it or not, terrorism is a 
part of all of our lives. And it will be a part of our grandchildren's 
and great-grandchildren's lives at the very least. Whereas a year ago, 
the word terrorism and the concept of terrorism peppered conversations 
of a select few, today elementary school children across our Nation 
hear the word in discussions on a regular basis.
    Second, given that terrorism is a fact in our lives, we must do 
everything possible to prevent it, but yet to prepare for it. Complete 
eradication of terrorism is not likely, but complete response 
preparation is absolutely mandatory.
    Third, the Center for Terrorism Preparedness at the University of 
Findlay stands ready to expand and develop its programs. We know that 
quality response preparation goes beyond the manuals, the charts, the 
computers. We have created terrorism response models that must have 
significant impact on our Nation. It is not necessary to start from 
square one. We as a Nation must build on what we know and what we have. 
Ladies and gentlemen, based on what we have learned since September 11, 
we are all on the fast track now.
    Thank you.
                                 ______
                                 
       National Center of Excellence for Environmental Management
    The University of Findlay is a private, liberal arts educational 
institution founded in 1882. Its campus has grown to over 170 acres 
occupied by approximately 4,500 students annually. The University is a 
national leader in the delivery of distance-learning programs, 
primarily through Web-based course offerings.
    The National Center of Excellence for Environmental Management 
(NCEEM) is a multifaceted education, training, and information-transfer 
program that focuses on environmental, safety and occupational health 
(ES&H) issues. NCEEM was established as a separate department within 
the University in 1986 with the initiation of the Bachelor in Hazardous 
Materials Management degree.
    NCEEM's mission is to develop and deliver effective and practical 
ES&H educational, training, and consulting programs globally through a 
combination of the following mechanisms:
    <bullet> Practical ``hands-on'' experiences
    <bullet> Internships and cooperatives
    <bullet> Various traditional delivery techniques
    <bullet> State-of-the-art, distance-learning techniques
    The University of Findlay is virtually the only institution that 
integrates ES&H management training with associate's, bachelor's, and 
master's degree programs and a nationally recognized Center for 
Terrorism Preparedness.
                     nceem's three primary programs
Academic Programs
    The Environmental, Safety and Occupational Health Bachelor of 
Science Degree Program
    <bullet> The ES&H bachelor of science degree program was 
established at the University of Findlay in 1986.
    <bullet> Over 100 students are currently enrolled in the ES&H 
bachelor's degree program.
    <bullet> The University of Findlay has graduated over 650 students 
with a degree in the ES&H fields since 1990.
    <bullet> Emphasis areas include science, industrial hygiene, 
compliance, and preengineering.
    <bullet> Internship and cooperative positions are available to 
enable students to gain practical on-the-job experience.
    <bullet> A bachelor's degree completion program that allows 
students from 2-year associate degree programs to complete an ES&H 
bachelor's degree is available at many locations throughout the United 
States and online via the Internet.

    The Environmental, Safety and Health Master of Science Degree 
Program
    <bullet> The ES&H master of science degree program was established 
at the University of Findlay in 1994.
    <bullet> Approximately 125 students are currently enrolled in the 
ES&H master's degree program.
    <bullet> The University of Findlay has graduated over 300 students 
with a master's degree in ES&H management since 1995.
    <bullet> The master's degree is offered at various locations 
throughout Ohio as well as online via the Internet.
    <bullet> The master's degree program is a blend of science, 
engineering, and business principles.
Training and Consulting Services
    Environmental Resource Training Center (ERTC)
    <bullet> The ERTC was established in March 1989 and is now composed 
of two training facilities including: three modern classrooms; on-
campus, indoor training facilities; and a 5-acre, outdoor, off-campus 
training facility on the east side of Findlay.
    <bullet> The primary focus of the ERTC is ``hands-on'' ES&H 
training for private industry, State and Federal regulators, 
firefighters, and university students.
    <bullet> The ERTC staffs 15 full-time and over 30 field-experienced 
contract trainers.
    <bullet> The major strengths of the ERTC include: flexibility, 
experience, depth of instructional staff, use of ``hands-on'' training 
scenarios, and the ability to manage multifaceted training programs 
conducted simultaneously at various locations across the United States.
    <bullet> The ERTC has trained over 50,000 people at the two 
training facilities in Findlay as well as at client locations coast to 
coast. Over 80 percent of the training conducted by the ERTC has been 
custom designed and conducted at client's facilities. The following are 
several examples:
    Major public-sector clients include: U.S. Department of Defense at 
nine major military bases and U.S. Department of Energy at seven sites 
in four States.
    Private-industry clients include: Ford Motor Company--40 plants in 
9 States and 18 plants in Mexico, Roadway Express--47 terminals in 30 
States, LTV Steel Company--2,100 employees in 9 States and hundreds of 
large and small firms across the Midwest.
    Environmental, Safety and Health Consulting Services
    <bullet> The ES&H Consulting Services group was established in 1997 
and has provided consulting services to clients in Ohio, Indiana, and 
Michigan.
    <bullet> The ES&H Consulting Services has a special focus that 
addresses safety- and emergency-plan assessments for hospitals and 
universities.
    <bullet> The ES&H Consulting Services also specializes in onsite 
bioremediation and phytoremediation projects.
    Center for Terrorism Preparedness
    <bullet> The Center for Terrorism Preparedness for Nuclear, 
Biological, and Chemical Acts and Domestic Terrorism (CTP) was 
established in 1999 and focuses on providing training and consulting 
services to the following four underserved populations:
          Public health/medical community
          Corporate safety and security personnel
          City/county officials
          Law enforcement personnel
     On September 30, 2001, the CTP was named by the Center for Disease 
Control as a Public Health Center for Bioterrorism and Infectious 
Disease Preparedness.
     The CTP features its own Web site at www.ufctp.org.
     The CTP has over 20 full-time and contract trainers available.
     The strength of the program lies in the CTP's ability to custom 
design programs and offers them at clients' locations nationally and 
internationally. Open enrollment courses are also available in Findlay, 
Ohio.
                    public health/medical community
    Will you, your employees, or your co-workers be able to function 
effectively in the aftermath of a disaster? Are your loved ones 
prepared to manage without you?
    The specter of terrorism has now raised its face upon the American 
horizon. During the decade of the 90's, we witnessed the physical and 
psychological trauma from such events as the bombings of the World 
Trade Center and the Alfred P. Murrah Building. Now, entering the 
twenty-first century, we are confronted with Weapons of Mass 
Destruction. To understand, prepare for, respond to, and recover from 
this kind of catastrophe, there must be a basic understanding of all 
types of disasters and their ramifications. Therefore, this Center is 
committed to providing educational opportunities and services directed 
toward the vulnerable State created by one's position, environment, or 
other circumstances.
    These courses have been designed for any person or agency personnel 
that would serve as an integral link to the affected community's 
infrastructure. We invite you to review the courses that have been 
developed, keeping in mind that they are the first of many courses that 
will be developed in the future. We welcome your suggestions, comments, 
and concerns, regarding these offerings and future offerings. We can 
better prepare you to respond to your community's needs, if we have 
feedback on what those needs are. A survey will be sent to each 
attendee before the course to enable the instructors to provide a more 
customized approach.
                 corporate safety & security personnel
    History clearly indicates that catastrophic terrorism can occur in 
virtually any location, at any time. Never before have we faced the 
dynamic problems that we are facing today. These include incidents such 
as sarin releases in Matsumoto and Tokyo, Japan, the bombings at the 
World Trade Center and the Federal building in Oklahoma City and the 
American Embassy in Kenya and the tragic events of September 11, 2001. 
All of these events strongly suggest that local terrorism preparedness 
and response programs are needed.
    The Center for Terrorism Preparedness is a leader in corporate 
safety and security training and education. We have conducted both 
domestic and international terrorism preparedness and emergency 
management training for military, intelligence and industries 
throughout the United States. Training is diverse and includes 
traditional classroom training, drills for first responders, tabletop 
exercises, and distance learning opportunities, including on-line 
education and the use of emerging technologies.
    The Center for Terrorism Preparedness is prepared to help you 
develop and implement all aspects of response to the ``all-hazard'' 
incident, including terrorist incidents. In addition, we realize that 
asset protection is a valuable part of preparedness and staff from the 
Center for Terrorism Preparedness are recognized the world over for 
their understanding of all aspects of asset protection.
    The CTP also specializes in custom designing training programs, and 
offering them at client locations coast to coast. Approximately 80 
percent of the work conducted through the Center is performed at our 
client's location.
    Planning for terrorism must go beyond training courses and drills. 
Terrorism readiness requires an in-depth, comprehensive approach to all 
of the details of terrorism, in addition to a broad, overall 
understanding of the issues. CTP staff members have experienced, first 
hand, all pieces of the puzzle and can present the wide range of 
knowledge needed for effective terrorism preparedness.
    Our staff can help you develop planning assumptions, establishing a 
baseline to begin your process. Further program development includes: 
threat analysis, analysis of targets and their vulnerabilities, 
analysis and development of your response capability and can help you 
institute an initiative to train, equip, and enhance your capabilities.
                         city/county officials
    Vast resources are available for response to a wide variety of 
incidents. We learn daily of the public and private resources that are 
brought to bear during terrorist events. However, in the first minutes 
and hours of a terrorist incident, the first line of defense consists 
of local officials and resources. For the most part, local resources 
are well trained. But, lack of common training causes individuals from 
different jurisdictions to have difficulty when responding together in 
an incident.
    The CTP staff members bring years of incident management 
experience, from a broad range of disciplines. This allows us to focus 
on the development, implementation, and delivery of programs to help 
communities develop a consolidated incident action plan. Our staff 
understands what it takes to bring together all the key players in a 
community and help them work toward the goal of effective incident 
management and the subsequent protection of the public.
    The Center for Terrorism Preparedness is a leader in training and 
education. We have conducted terrorism preparedness and emergency 
management training for military, intelligence and civilian authorities 
throughout the United States. Training is diverse and includes 
traditional classroom training, drills for first responders, tabletop 
exercises, and distance learning opportunities, including on-line 
education and the use of emerging technologies.
    In addition, The CTP has recently been named as a ``Public Health 
Center for Bioterrorism Preparedness from the CDC. In its role the 
CTP's additional responsibilities include research and the development 
of technology to respond to the rapidly changing bioterrorism response 
environment.
    The CTP also specializes in custom designing training programs, and 
offering them at client locations coast to coast. Approximately 80 
percent of the work conducted through the Center is performed at our 
client's location.
    One of the primary training programs currently offered by the CTP 
is a 16-hour countywide Terrorism Threat Assessment Workshop. All of 
the key players within the county are gathered at a convenient location 
for 2-days of intense, facilitated sessions, designed to get everyone 
on common ground and introduce the group to consolidated planning. Part 
of the cost of the training is picked up by grants to the Center for 
Terrorism Preparedness.
    We invite you to look at the schedule of available open enrollment 
training classes described below. As mentioned earlier, the CTP is 
fully capable of developing and implementing customized programs and 
conducting the training at your facility.
                       law enforcement personnel
    No words can truly describe the tragedy that occurred on September 
11, 2001. The images of the destruction of the World Trade Center are 
extremely powerful and will forever be etched in our memories. The 
tremendous emotions stirred in every American as a result this tragic 
incident cannot be denied as well.
    We have learned much from the tragic events of September 11. For 
example, we now know that we will not only see more acts of terrorism 
in the future, but we will see these acts grow more destructive and 
more difficult to combat as well. And we have also been reminded that 
no area of the country is safe. Terrorism can strike anywhere.
    The Center for Terrorism Preparedness (CTP) is addressing these 
concerns and fears by providing training to the law enforcement 
community that focuses on preventing acts of terrorism, as well as 
defending against such acts should prevention fail. The training 
offered is both practical and hands-on. In addition, the courses are 
taught by current and former law enforcement officers with many years 
of professional law enforcement experience in a variety of police 
disciplines.
    CTP's staff understands the problems facing today's law enforcement 
professional and his attempt to combat terrorism. To accomplish this 
task, the staff has developed a program that attempts to reduce our 
country's vulnerability to devastating acts of terrorism by providing a 
wide range of diverse training, which includes traditional classroom 
instruction as well as practical exercises.
    The CTP also specializes in custom designing training programs, and 
offering them at client locations coast to coast. Approximately 80 
percent of the work conducted through the Center is performed at our 
client's location.
    Through it's training, CTP can provide the responding officer the 
skills necessary to identify and survive a terrorist incident as well 
as to identify and investigate the terrorist himself. The CTP staff can 
also provide the law enforcement community with the understanding to 
identify and deal with the unique emotional characteristics experienced 
by individuals involved in traumatic events and crisis.
                            first responders
    ``The rules have changed'', and your response must adapt to this 
new type of warfare. Fire, police, EMS, and HazMat personnel have been 
and will continue to be the front line of defense for terrorist-types 
of incidents on our own soil. Continuing education is the most 
effective way to assure a safe response.
    The National Center for Excellence in Environmental Management 
(NCEEM) has long been established as an excellent trainer for first 
responders. Training in HazMat, incident command, and confined space 
promotes better responses to other incidents including the ``unique'' 
type, i.e. terrorism, clandestine drug labs, environmental crimes, etc. 
where cooperation between agencies is a must. Through grants from the 
Public Utilities Commission of Ohio, HazMat classes many times are 
offered free to Ohio First Responders. Currently, we are determining if 
the terrorism classes can be offered under this plan.
    The Center for Terrorism Preparedness (CTP) offers courses to first 
responders under the same general levels of training already 
established for hazardous materials incidents. The Terrorism Overview 
course is an excellent awareness level course for all first responders. 
Operations level personnel should receive the Emergency Response to 
Terrorism: Operations Level course and technicians will benefit from 
the Emergency Response to Terrorism: Technician Level course.
    Each course gives the participant an overview of current and past 
terrorist type acts, recognition clues for the various types of 
weaponry (biological, nuclear, chemical, incendiary, and explosive) and 
suggested response guidelines. The technician class also explores the 
use of military and civilian detection devices currently being offered 
for use in a WMD event. These courses are constantly updated to reflect 
the current but ever changing climate that we are facing each day. 
Whether you are training 5 or 500, the CTPs use of qualified 
instructors (either retired or still actively working as first 
responders) will assure a fresh and relevant education.
    In addition, The CTP has recently been named as a ``Public Health 
Center for Bioterrorism Preparedness'' from the CDC. In its role the 
CTP's additional responsibilities include research and the development 
of technology to respond to the rapidly changing bioterrorism response 
environment.
    The CTP also specializes in custom designing training programs, and 
offering them at client locations coast to coast. Approximately 80 
percent of the work conducted through the Center is performed at our 
client's location.
    Terrorism in Schools: Be Prepared, Not Scared!
    The threat of terrorism is real and affects all of us.
    The University of Findlay's Center for Terrorism Preparedness has 
developed a CD-ROM to prepare school employees for terrorist attacks 
and other acts of violence. The purpose of this training CD is to 
ensure proper planning, prevention, and response in the event of a bomb 
threat or a chemical or biological incident. The goal is not to 
frighten, but to educate school personnel on standard techniques that 
will help to ensure the safety of staff and students.
    The CD-ROM is broken down into 10 sections based upon job category, 
such as teacher, custodian, administrator, and school nurse. Video 
scenarios are given for each job category, showing one or more scenes 
involving a suspicious incident or event. The result of an improper 
response is then discussed, and a checklist is given of the proper 
procedures and preparation for such incidents. This checklist can also 
be printed for a reference, and a resource section presents relevant 
links for additional material.
                                teacher
    As a teacher, your primary role is the safety of your classroom and 
students. In the event of a disaster, you are the first responder. By 
recognizing the potential areas of concern illustrated in the following 
scenario, remaining alert to them at all times, and understanding the 
proper responses, you can ensure the safety of your students and 
yourself.
   oxley, dewine announce antiterrorism grant for the university of 
                                findlay
    Washington, December 20, 2001.--The University of Findlay will 
receive a $1.6 million Federal grant for terrorism preparedness 
training, U.S. Congressman Michael G. Oxley (R-Findlay) and U.S. 
Senator Mike DeWine announced today.
    ``The University of Findlay is poised to play a leading role in 
protecting the citizens of Ohio and the U.S. against terrorism,'' Oxley 
said. ``The University foresaw this threat when if formed The Center 
for Terrorism Preparedness. The tragic events of September 11th have 
demonstrated how important it is for us to be able to respond to 
catastrophes.''
    ``As a member of the Senate Appropriations Committee, I worked to 
ensure that the University of Findlay's antiterrorism program received 
careful attention during the appropriations process,'' said Senator 
DeWine. ``Clearly, Americans are now aware of the very real potential 
for terrorist attacks.''
    The $1.6 million grant was part of the Labor-HHS-Education 
Appropriations conference report. The Senate approved the bill today, 
following House passage on Wednesday. Oxley expressed appreciation to 
Appropriations Subcommittee Chairman Ralph Regula (R-Navarre) for his 
support.
    The University of Findlay plans to use the money to further develop 
its training programs and facilities. The Findlay program has the 
distinction of being one of only 14 units in the U.S. officially 
designated as bioterrorism response centers by the Centers for Disease 
Control.
    ``The University of Findlay is working with the Centers for Disease 
Control and partners in Ohio to fill a critical gap in education and 
training. As a former FBI agent, I know that the U.S. faces very real 
threats,'' Oxley stated.
    ``Ohio is fortunate to have a high-quality bioterrorism 
preparedness training program at the University of Findlay,'' said 
Senator DeWine. ``The University is in a prime position to help ensure 
the first responders to a bioterrorism attack are prepared.'' Oxley and 
DeWine have a long record of support for the University of Findlay's 
terrorism response and hazardous materials program.
    The grant will be administered by the Health Resources and Services 
Administration in the Department of Health and Human Services.
                    uf/nwtc partnership established
    Findlay, Ohio, Jan. 18, 2002.--The University of Findlay's Center 
for Terrorism Preparedness and the National Wilderness Training Center, 
Inc., (NWTC) have announced a partnership to provide high quality 
special operations and tactical training to law enforcement, military 
and select corporate security communities as it relates to terrorism.
    The partnership will provide hands-on, practical-based education 
and training to develop a fully integrated preparation, response and 
recovery program to effectively combat the threat of terrorism.
    Courses offered by the Center for Terrorism Preparedness at UF give 
the officer an overview of current and past terrorist type acts, 
recognition clues for the various types of weaponry most likely to be 
encountered and suggested response guidelines. All courses are designed 
with the law enforcement officer in mind and are tailored specifically 
to enhance enforcement operations when preventing, responding to or 
countering a critical incident.
  

                                  <all>

</pre></body></html>
